<html>
<title> - THE HIGHER EDUCATION ACT: APPROACHES TO COLLEGE PREPARATION</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                       THE HIGHER EDUCATION ACT:
                   APPROACHES TO COLLEGE PREPARATION

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON HIGHER EDUCATION,
                 LIFELONG LEARNING, AND COMPETITIVENESS

                              COMMITTEE ON
                          EDUCATION AND LABOR

                     U.S. House of Representatives

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, MARCH 22, 2007

                               __________

                           Serial No. 110-13

                               __________

      Printed for the use of the Committee on Education and Labor


                       Available on the Internet:
      http://www.gpoaccess.gov/congress/house/education/index.html


                      U.S. GOVERNMENT PRINTING OFFICE
34-016 PDF                    WASHINGTON  :  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government
Printing Office Internet:  bookstore.gpo.gov Phone:  toll free (866)
512-1800; DC area (202) 512-1800 Fax: (202)512-2250 Mail: Stop SSOP,
Washington, DC 20402-0001 



                    COMMITTEE ON EDUCATION AND LABOR

                  GEORGE MILLER, California, Chairman

Dale E. Kildee, Michigan, Vice       Howard P. ``Buck'' McKeon, 
    Chairman                             California,
Donald M. Payne, New Jersey            Ranking Minority Member
Robert E. Andrews, New Jersey        Thomas E. Petri, Wisconsin
Robert C. ``Bobby'' Scott, Virginia  Peter Hoekstra, Michigan
Lynn C. Woolsey, California          Michael N. Castle, Delaware
Ruben Hinojosa, Texas                Mark E. Souder, Indiana
Carolyn McCarthy, New York           Vernon J. Ehlers, Michigan
John F. Tierney, Massachusetts       Judy Biggert, Illinois
Dennis J. Kucinich, Ohio             Todd Russell Platts, Pennsylvania
David Wu, Oregon                     Ric Keller, Florida
Rush D. Holt, New Jersey             Joe Wilson, South Carolina
Susan A. Davis, California           John Kline, Minnesota
Danny K. Davis, Illinois             Bob Inglis, South Carolina
Raul M. Grijalva, Arizona            Cathy McMorris Rodgers, Washington
Timothy H. Bishop, New York          Kenny Marchant, Texas
Linda T. Sanchez, California         Tom Price, Georgia
John P. Sarbanes, Maryland           Luis G. Fortuno, Puerto Rico
Joe Sestak, Pennsylvania             Charles W. Boustany, Jr., 
David Loebsack, Iowa                     Louisiana
Mazie Hirono, Hawaii                 Virginia Foxx, North Carolina
Jason Altmire, Pennsylvania          John R. ``Randy'' Kuhl, Jr., New 
John A. Yarmuth, Kentucky                York
Phil Hare, Illinois                  Rob Bishop, Utah
Yvette D. Clarke, New York           David Davis, Tennessee
Joe Courtney, Connecticut            Timothy Walberg, Michigan
Carol Shea-Porter, New Hampshire

                     Mark Zuckerman, Staff Director
                   Vic Klatt, Minority Staff Director
                                 ------                                

                   SUBCOMMITTEE ON HIGHER EDUCATION,
                 LIFELONG LEARNING, AND COMPETITIVENESS


                    RUBEN HINOJOSA, Texas, Chairman

George Miller, California            Ric Keller, Florida,
John F. Tierney, Massachusetts         Ranking Minority Member
David Wu, Oregon                     Thomas E. Petri, Wisconsin
Timothy H. Bishop, New York          Cathy McMorris Rodgers, Washington
Jason Altmire, Pennsylvania          Virginia Foxx, North Carolina
John A. Yarmuth, Kentucky            John R. ``Randy'' Kuhl, Jr., New 
Joe Courtney, Connecticut                York
Robert E. Andrews, New Jersey        Timothy Walberg, Michigan
Robert C. ``Bobby'' Scott, Virginia  Michael N. Castle, Delaware
Susan A. Davis, California           Mark E. Souder, Indiana
Danny K. Davis, Illinois             Vernon J. Ehlers, Michigan
Mazie Hirono, Hawaii                 Judy Biggert, Illinois







                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on March 22, 2007...................................     1
Statement of Members:
    Hinojosa, Hon. Ruben, Chairman, Subcommittee on Higher 
      Education, Lifelong Learning, and Competitiveness..........     1
    Keller, Hon. Ric, Ranking Minority Member, Subcommittee on 
      Higher Education, Lifelong Learning, and Competitiveness...     2

Statement of Witnesses:
    Cantu, Martha, director, Gear Up Program, University of 
      Texas-Pan American.........................................     5
        Prepared statement of....................................     7
    Linn, Dane, director, education division, Center for Best 
      Practices, National Governors Association..................    15
        Prepared statement of....................................    17
    Martinez, Maria D., director, Center for Academic Programs, 
      University of Connecticut..................................    12
        Prepared statement of....................................    14
    J.B. Schramm, founder, College Summit........................    23
        Prepared statement of....................................    25


                       THE HIGHER EDUCATION ACT:
                   APPROACHES TO COLLEGE PREPARATION

                              ----------                              


                        Thursday, March 22, 2007

                     U.S. House of Representatives

                   Subcommittee on Higher Education,

                 Lifelong Learning, and Competitiveness

                    Committee on Education and Labor

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to call, at 1:33 p.m., in 
Room 2175, Rayburn House Office Building, Hon. Ruben Hinojosa 
[chairman of the subcommittee] presiding.
    Present: Representatives Hinojosa, Wu, Bishop, Yarmuth, 
Courtney, Scott, Davis of California, Keller, Petri, Kuhl, 
Ehlers, and McKeon.
    Staff present: Tylease Alli, Hearing Clerk; Denise Forte, 
Director of Education Policy; Gabriella Gomez, Senior Education 
Policy Advisor (Higher Education); Lamont Ivey, Staff 
Assistant, Education; Brian Kennedy, General Counsel; Danielle 
Lee, Press/Outreach Assistant; Ricardo Martinez, Policy Advisor 
for Subcommittee on Higher Education, Lifelong Learning and 
Competitiveness; Joe Novotny, Chief Clerk; Lisette Partelow, 
Staff Assistant, Education; Julia Radocchia, Education Policy 
Advisor; Kathryn Bruns, Legislative Assistant; Steve Forde, 
Communications Director; Jessica Gross, Deputy Press Secretary; 
Amy Raaf Jones, Professional Staff Member; Linda Stevens, Chief 
Clerk/Assistant to the General Counsel; and Sally Stroup, 
Deputy Staff Director.
    Chairman Hinojosa [presiding]. A quorum is present. The 
hearing of the subcommittee will come to order.
    Pursuant to the committee rule 12(a), any member may submit 
an opening statement in writing which will be made part of the 
permanent record.
    I want to say good afternoon and welcome to the 
subcommittee's second hearing of the reauthorization of the 
Higher Education Act.
    It is no accident that one of the key components of 
President Johnson's war on poverty was the Higher Education Act 
of 1965. The power of education to increase earnings and 
improve overall quality of life is well-documented. Higher 
education is an integral part of the American dream.
    College access and success requires high expectations and 
aspirations, the know-how to act on them, rigorous academic 
preparation, and the financial resources to be able to pay for 
college.
    From the beginning, the Higher Education Act has recognized 
that college preparation is an essential piece of the college 
access and success puzzle. The TRIO programs are part of an 
original federal policy in support of higher education.
    The high-school equivalency program is part of that TRIO 
program. The high school equivalency program and college 
assistance migrants program were designed to address the unique 
needs of students from migrant farm-worker families. Before HEP 
and CAMP, there was no record of a migrant student achieving a 
college education.
    In 1998, the higher education expanded these efforts by 
building partnerships for college preparation known as the GEAR 
UP program.
    The sad truth is that these programs only reach a fraction 
of the eligible population. Some estimates are as low as nearly 
10 percent. This is at a time when the level of educational 
attainment is increasingly the dividing line between the haves 
and the havenots.
    Over their lifetime, college graduates earn approximately 
73 percent more than high school graduates. Forty-nine of the 
50 highest-paying occupations require post-secondary education.
    The president's budget estimates that $90 billion will be 
devoted to the student aid programs in the 2008 budget. 
However, only a little more than $1.1 billion will be invested 
in the college preparation programs, including GEAR UP and 
TRIO.
    This represents an actual decrease in funds from fiscal 
year 2005. It seems to me that we must do better than that.
    One of the issues that we will need to tackle in this 
reauthorization of the Higher Education Act is ensuring that 
all students have access to the information and academic 
preparation that they need to be able to take advantage of 
post-secondary education opportunities. We need to increase the 
college know-how in the communities that have not had access to 
college opportunities.
    That is why today's hearing is so important. We will 
discuss some of the key federal investments in college 
preparation and outreach. We will also learn about state and 
private-sector initiatives.
    I am looking forward to the witnesses' testimony and thank 
all of you for joining us today.
    I now recognize my good friend, the ranking member of the 
subcommittee, Congressman Rick Keller, from the state of 
Florida, for his opening statement.
    Mr. Keller. Well, thank you, Mr. Chairman.
    And good afternoon.
    I want to thank you especially, Chairman Hinojosa, for 
holding today's hearing on approaches to college preparation.
    I would also like to welcome all of our witnesses and thank 
all of you for taking your time to come and testify before the 
subcommittee today.
    The discussion of access to a college education begins with 
college preparation. First-generation, low-income or minority 
students sometimes need personal guidance to prepare and 
navigate the world of higher education. And we are here today 
to discuss some of those programs and organizations that do 
just that.
    Some of the TRIO programs, for example, have been around 
since the inception of the Higher Education Act. It became 
clear, however, that additional student support or transition 
programs were needed to bolster college access and preparation 
for students. So the GEAR UP program was added in the most 
recent reauthorization of the Higher Education Act in 1998.
    Still other programs, provided by organizations like 
College Summit, have been around less time but are, in fact, 
doing an outstanding job of providing additional service to 
students.
    Let me first say that I agree that the programs highlighted 
in today's are worthy and important programs. If America hopes 
to remain competitive, we need to ensure that students are 
graduating from high school with the ability, the opportunity 
and the desire to pursue their dreams of a college education.
    Currently, TRIO grants are awarded competitively to 
institutions of higher education and other public and private 
institutions and agencies. However, in selecting grantees, the 
Department of Education gives prior-experience points to 
applicants that have previously been awarded a grant.
    The use of the prior-experience points often shuts new 
applicants out of the program. I fundamentally believe that 
competition breeds better products and services, that the 
competition should be fair, and the winners awarded on their 
merits as much as prior experience.
    Before I conclude, I would like to thank our witnesses once 
again for agreeing to testify before the subcommittee today. 
And I look forward to hearing your testimony.
    Chairman Hinojosa. Without objection, all members have 14 
days to submit additional materials or questions for the 
hearing record.
    I would like to introduce our very distinguished panel of 
witnesses here with us this afternoon.
    The first presenter is Dr. Maria Martinez--oh, forgive me, 
I have the wrong one. I apologize.
    The first presenter is Dr. Martha Cantu. Dr. Cantu was 
raised in the Rio Grande Valley and is a product of the McAllen 
public school system. She has attended the University of Texas-
Pan American and has earned a Bachelor of Arts in speech and 
hearing. She has also earned a Master's of Education in 
educational diagnostician, and she has just recently earned a 
Doctorate of Education in educational leadership.
    Martha has worked as a speech therapist and education 
diagnostician and a special education administrator for 21 
years before coming to the university in 2005 to lead the GEAR 
UP project.
    Dr. Cantu, you are a very good role model, and I am 
especially proud to welcome you here today.
    Mr. Courtney, I believe that you have someone who is very 
special from your district, and I wish to recognize you.
    Mr. Courtney. Thank you, Mr. Chairman.
    And it is an honor, actually, to introduce the next 
witness, Dr. Maria Martinez, who is director of the Center for 
Academic Programs at the University of Connecticut, which is 
located in the heart of my district and is the flagship public 
university in the state of Connecticut.
    The Center for Academic Programs at U-Conn houses the 
oldest TRIO effort in Connecticut and administers four 
federally funded programs: Educational Talent Search, Student 
Support Services, Upward Bound, and GEAR UP.
    Dr. Martinez came to U-Conn in 1986 from Saint Joseph 
College in West Hartford, where she designed and conducted 
training programs for social workers and human-services workers 
throughout the state of Connecticut.
    In 1995, she was named the director of U-Conn's CAP. And in 
her role as director, Dr. Martinez has been able to promote the 
center's mission, which is to increase access to higher 
education for high-potential students who come from under-
represented ethnic or economic backgrounds and are first-
generation college students through numerous educational 
opportunity initiatives.
    And one of the schools that she works in, the Windham 
Middle School, is actually where my wife right now is working 
today as a pediatric nurse practitioner in the school-based 
clinic.
    And it is just a really important effort that U-Conn and 
your center does to help these kids really broaden their 
horizons and get an opportunity to get ahead in life.
    The Hartford Courant issued a report not too long ago which 
demonstrated the widening gap that the chairman described in 
his opening remarks that exists in Connecticut. The top 
quintile in Connecticut, 70 percent of children from those 
families go to higher education. Unfortunately the bottom 
quintile of income in Connecticut, only 16 percent.
    So we are seeing this gap that is creating barriers for 
children from low-income backgrounds, and that is going to, as 
Mr. Keller indicated, create real problems for the future 
economic competitiveness of our economy.
    I would just, again, thank the chairman for giving me the 
privilege of introducing this wonderful witness, who is going 
to share some great ideas with us today.
    Chairman Hinojosa. Thank you very much, Congressman 
Courtney.
    The next presenter I wish to present is Dane Linn. Dane 
Linn oversees all education-related policy research, analysis 
and resource development at the NGA. He has authored numerous 
policy reports on issues ranging from school finance to teacher 
quality and school redesign to pay for performance. Mr. Linn 
recently spearheaded the division's initiative on redesigning 
the American high school.
    He has been both a teacher and a principal in the 
elementary schools. Dane is a graduate of Cabrini College and 
has received a Master's Degree from Marshall University 
Graduate College and is currently a Ph.D. candidate at Virginia 
Polytechnic Institute and State University.
    Welcome.
    And our final presenter will be J.B. Schramm. J.B. Schramm 
founded the organization in 1993, and since that time College 
Summit has served over 20,000 students and trained over 700 
educators nationwide.
    The enterprise has been recognized in the field of college 
access and social entrepreneurship by the Fast Company 
magazine, as well as Monitor Group. The U.S. Department of 
Education has recognized their service as well, and the 
National Association of College Admission Counselors has given 
them the association's highest award.
    Mr. Schramm is a graduate of Yale University and Harvard 
Divinity School.
    Welcome, each and every one of you.
    I believe that someone very special just walked in, a 
former congresswoman.
    And I want to say, Congresswoman Pat Schroeder, welcome to 
our Higher Education hearing. It is a pleasure, and we are 
honored to have you.
    Please give her a big round of applause. [Applause.]
    For those of you who have not testified before this 
subcommittee, please allow me to explain our lighting system 
and the 5-minute rule.
    Everyone, including members, is limited to 5 minutes of 
presentation or questioning. The green light in front of you is 
illuminated when you begin to speak. When you see the yellow 
light, it means you have 1 minute remaining. When you see the 
red light, it means your time has expired and you need to 
conclude your testimony.
    Please be certain, as you testify, to turn on and speak 
into the microphones in front of you so that we can hear you.
    The rules of the committee, adopted January the 24th, give 
the chair the discretion on how to recognize members of 
Congress for questioning. It is my intention, as chair of this 
subcommittee, to recognize those members present and seated at 
the beginning of the hearing in order of their seniority on 
this subcommittee. Members arriving after the hearing has begun 
will be recognized in order of appearance.
    I am going to ask Dr. Cantu, if you wish, you may start.

     STATEMENT OF MARTHA CANTU, DIRECTOR, GEAR UP PROGRAM, 
                UNIVERSITY OF TEXAS-PAN AMERICAN

    Ms. Cantu. Good afternoon, Congressman Hinojosa and 
committee members, and thank you for the opportunity to share 
my testimony today.
    Our project provides services to nearly 9,000 GEAR UP 
students, their parents and teachers, in 28 different middle 
schools in the Rio Grande Valley of south Texas.
    I would like to begin by sharing some recent survey data 
collected from the GEAR UP students and parents in our project. 
This data shows that students in our area have a strong desire 
to pursue a college education and that their parents support 
them in this pursuit of the American dream.
    Of the 7,800 students surveyed, 94 percent reported that 
they would like to obtain a college degree. I remind you that 
these are 8th-graders that have already formed an aspiration to 
graduate from college.
    Of the parents surveyed, 99 percent of them indicated they 
wanted their child to obtain a college degree.
    These are compelling numbers. They show the passion for 
education shared by Hispanic parents and children that are 
traditionally under-represented in colleges and universities in 
our great nation. Clearly, aspirations are high.
    But now I would like to share some additional information 
collected in the same survey, that shows that our parents lack 
knowledge on the processes involved in college enrollment and 
degree attainment. Therefore, parental involvement activities 
are a strong component of our grant services.
    Only 34 percent of our parents accurately reported the cost 
of college, and only 43 percent reported knowing college 
admissions requirements.
    This is why GEAR UP is critical. There is a perilous 
disparity between aspirations and the knowledge necessary to 
make those aspirations a reality.
    With a grant such as ours, we are able to ensure that 
students and parents are learning about the college admissions 
process, college entrance exams, financial aid, the value of 
rigorous coursework in high school, and also receive constant 
support and guidance in making the right choices.
    To facilitate this, each of the 28 GEAR UP campuses has 
both a GEAR UP coordinator and a family liaison to provide 
services to students, parents and teachers.
    The Department of Education sets forth requirements for the 
GEAR UP projects across the country. This means that students, 
parents and teachers must be provided with an array of 
opportunities that will increase college aspirations and actual 
college enrollment and success.
    I would now like to highlight for you some of the strides 
we are making in GEAR UP.
    This year, our project tested over 8,000 8th-grade students 
with the EXPLORE exam, which is a precursor to the ACT. GEAR UP 
will also provide the ACT PLAN exam in the 10th grade and the 
ACT in the 11th grade.
    GEAR UP provides summer camps in computer science, 
robotics, creative writing, clinical lab sciences, physics and 
math, to name just a few.
    GEAR UP college tutors assist students in the core content 
areas, with a focus on math and science. This year, over 5,800 
students have each received an average of 14 hours of tutoring.
    By the 8th grade, 5,858 GEAR UP students have visited at 
least one college or university.
    Volunteer parents enter an intensive training called Las 
Platicas Academy. It is a 15-hour course that includes topics 
such as NCLB, graduation plans, study habits, college and 
financial aid information. Once parents complete the training, 
they will share acquired knowledge to empower and train other 
parents by conducting community outreach and spreading the 
message that every student will have access to college with the 
GEAR UP project.
    We have also partnered with the National Hispanic Institute 
to develop an 8th-grade comprehensive parent curriculum that 
was utilized to train parents in the middle school during 
monthly parent meetings.
    We also have two annual parent conferences that are held to 
inform parents about college admissions, financial aid, core 
content training, and making sure their children are on track 
for college.
    Additionally, we have partnered with Texas Instruments, 
FORD PAS, Princeton Review and other local entities, including 
UTPA and other local colleges.
    So far this year, over 300 GEAR UP teachers have received 
comprehensive professional development to assist them in 
preparing our GEAR UP students for a post-secondary education.
    My testimony today is that GEAR UP is needed to continue to 
train parents and teachers to significantly increase the 
numbers of students going to college.
    In closing, I would like to quote a Grant 1 GEAR UP student 
who said, ``GEAR UP has inspired me and has helped me to set my 
goals. Before GEAR UP, my plans were to continue field work as 
a migrant. When I started getting involved with GEAR UP, my 
whole life changed. I have decided to start applying for 
scholarships in admission to different universities to continue 
my education.''
    Again, I thank you for the opportunity, Congressman 
Hinojosa, to provide testimony this afternoon.
    [The statement of Ms. Cantu follows:]

    Prepared Statement of Martha Cantu, Director, Gear Up Program, 
                    University of Texas-Pan American

    Good afternoon Committee Members and thank you for the opportunity 
to share my testimony today. My name is Dr. Martha Cantu and I am the 
Director for the University of Texas-Pan American GEAR UP Project. Our 
Project provides services to nearly 9,000 GEAR UP students, their 
parents and teachers in 28 different middle schools in the Rio Grande 
Valley of South Texas.
    I would like to begin by sharing some recent survey data collected 
from the GEAR UP students and parents in our Project. This data shows 
that students in our area have a strong desire to pursue a college 
education and that their parents support them in this pursuit of the 
American Dream.
    Of the 7800 students surveyed, 94% reported that they would like to 
obtain a college degree. I remind you that these are 8th grade students 
that have already formed an aspiration to graduate from college.
    Of parents surveyed, ninety-nine percent of them indicated that 
they want their children to obtain a college degree.
    These are compelling numbers. They show the passion for education 
shared by Hispanic parents and children that are traditionally 
underrepresented in colleges and universities in our nation.
    Clearly aspirations are high, but now I would like to share 
additional information collected in the same survey that shows that our 
parents lack knowledge on the processes involved in college enrollment 
and degree attainment; therefore parental involvement activities are a 
strong component of our grant services.
    Only thirty-four percent of parents accurately reported the cost of 
college, and only 43% report knowing college admissions requirements.
    This is why GEAR UP is critical; there is a perilous disparity 
between aspirations and the knowledge necessary to make those 
aspirations a reality.
    With a grant such as ours, we are able to ensure that students and 
parents are learning about the college admissions process, college 
entrance exams, financial aid, the value of rigorous coursework in high 
school, and also receive constant support and guidance in making the 
right choices. To facilitate this, each of the 28 GEAR UP campuses has 
both a GEAR UP Coordinator and Family Liaison to provide services to 
students, parents and teachers.
    The Department of Education sets forth service requirements for the 
GEAR UP Projects across the country. This means that students, parents, 
and teachers must be provided with an array of opportunities that will 
increase college aspirations and actual college enrollment and success.
    I would now like to highlight some of the strides we are making in 
GEAR UP.
    <bullet> This year, our Project tested over 8,000 8th grade 
students with the EXPLORE exam which is a precursor to the ACT. GEAR UP 
will also provide the ACT PLAN Exam in the 10th grade and the ACT in 
the 11th grade.
    <bullet> GEAR UP provides summer camps in Computer Science, 
Robotics, Creative Writing, Clinical Lab Sciences, Physics, and Math to 
name just a few.
    <bullet> GEAR UP college tutors assist students in the core content 
areas with a focus on math and science. This year, over 5,800 students 
have each received an average of 14 hours of tutoring.
    <bullet> By the 8th grade, 5,858 GEAR UP students have visited at 
least one college or university.
    <bullet> Volunteer parents enter an intensive training called ``Las 
Platicas Academy.''
    It is a 15 hour course that includes topics such as NCLB, 
graduation plans, study habits, college and financial aid information. 
Once parents complete the training they will share acquired knowledge 
to empower and train other parents by conducting community outreach, 
and spreading the message that every student will have access to 
college with GEAR UP Project support.
    <bullet> We have also partnered with the National Hispanic 
Institute to develop an 8th grade comprehensive parent curriculum that 
was utilized to train parents in the middle school during monthly 
parent meetings.
    <bullet> There are also two annual parent conferences that are held 
to inform parents about college admissions, financial aid, core content 
area training and making sure their children are on track for college.
    <bullet> Additionally, we have partnered with Texas Instruments, 
FORD PAS, Princeton Review and other local entities including UTPA and 
other local colleges, over 300 GEAR UP teachers have received 
comprehensive professional development to assist them in preparing our 
GEAR UP students for a post secondary education.
    My testimony today is that GEAR UP is needed to continue to train 
parents and teachers in significantly increasing the number of students 
who are prepared to enter and succeed in post secondary education.
    In closing I would like to quote a Grant 1 GEAR UP student who said 
``GEAR UP has inspired me and has helped me set my goals. Before GEAR 
UP, my plans were to continue field work as a migrant. When I started 
getting involved with GEAR UP, my whole life changed. I decided to 
start applying for scholarships and admission to different universities 
to continue my education''.
    Again, I thank you for the opportunity to be here today.
    Due to the brevity of the oral testimony, I would like to provide 
additional information on the University of Texas Pan American GEAR UP 
grant and the services provided to students, parents, and teachers. Our 
grant is broken down into five major components, each of which is 
measured by a set of objectives that are evaluated annually and 
reported to the Department of Education. Below is a brief synopsis of 
each of the five grant components and some key initiatives in each 
area.
Five Major Grant Components and Services Offered By GEAR UP:
            Component 1: Academic Preparation
    The foundation of the GEAR UP Project is academic preparation. Our 
students must be exposed to the rigor of college level work and must be 
held accountable with high expectations of success. Our Project 
provides a variety of services that area aligned to the mission of GEAR 
UP and are intended to prepare students to complete high schools and 
enroll and succeed in college.
    Services provided in this area include:
    ACT/SAT Exam Preparation--Repeated exposure to college entrance 
exams is critical; GEAR UP allows for early testing on an exam called 
the EXPLORE which is a precursor to the ACT and given at the 8th grade. 
This year, our Project tested well over 8,000 students and we have been 
able to use those results to guide curriculum in the classroom. 
Furthermore, there is much weight in telling an 8th grader that he/she 
is about to take college entrance exam because it communicate high 
expectations and a belief in their ability. GEAR UP will also provide 
the ACT PLAN Exam in the 10th grade and the ACT in the 11th grade.
    Concurrent Enrollment and Dual Credit Courses--Once our students 
reach the 10th grade, GEAR UP will provide opportunities for students 
to enroll in college level courses at the University of Texas Pan 
American and at South Texas College to earn college credit and high 
school credits concurrently. GEAR UP students have the potential to 
graduate from high school with up to 60 college hours.
    Math and Science Summer Camps--GEAR UP provides summer camps at the 
University of Texas Pan American each summer and at other colleges in 
the area. Our intent is to provide a strong academic curriculum taught 
by college professors with the university as a backdrop and full 
exposure to dorm life, facilities, professors, intramural activities, 
and of course, the college cafeteria! Just last summer in the 
Electrical Engineering Camp, we had our 7th grade students study, 
construct, and test an electric car with a command box! This is hands-
on science and math in a college environment made possible because of 
GEAR UP and resources offered by our fiscal agent, UTPA. This summer we 
have 11 different camps planned for both boy and girls as they 
transition into the 9th grade in Computer Science, Robotics, Creative 
Writing, Global, Drama, Clinical Lab, Physics, and Math to name just a 
few.
    College Tutors--Each GEAR UP middle school has college tutors that 
are made available using GEAR UP funds. These college tutors assist 
students in the core content areas with a focus on math and science. 
Furthermore, they serve as mentors because they are living the college 
dream and are eager to share that experience with our GEAR UP students. 
This year alone, 5,867 students have each received an average of 14 
hours of tutoring hours through GEAR UP resources.
            Component 2: Academic Preparation Support Services
    This component of our grant supports the rigor of the classroom 
with consistent exposure to college type of activities that help to 
motivate students to do well in their classes. Many have heard the term 
``well-rounded'' when referring to students and the GEAR UP Project 
contributes to that ideal by infusing real life experiences to support 
the mission of GEAR UP.
    Services provided in this area include:
    Guidance and Counseling--Each GEAR UP school has a GEAR UP 
Counselor that monitors and supports the progress of GEAR UP students. 
This advocate position is critically important because this same person 
began with the cohort in the 7th grade and will continue to serve in 
this position until the students complete the 12th grade. They are a 
constancy in the life of students and develop a true relationship with 
students, their parents, and their teachers to make sure that the needs 
of the GEAR UP students are being met and that all entities work 
together. This year alone, the GEAR UP Counselors in our grant provided 
extensive guidance and counseling services to 7,430 GEAR UP students.
    College Visits--The Rio Grande Valley is home to the University of 
Texas-Pan American, the University of Texas Brownsville, South Texas 
College, Texas State Technical College, and variety of local intuitions 
of higher learning and/or certificate programs. The GEAR UP approach is 
to start locally and have students visit our local schools before 
leaving the area for state tours. By the 8th grade, 5,858 GEAR UP 
students have visited at least one college or university! Each year, 
the visits become more selective and include presentations from beyond 
the university's outreach department, but also include presentations 
and tours of the different departments, classroom observations, college 
student discussions, and the exposure to different guest speakers, art 
exhibits, performing arts events, and countless other examples of 
college life activities. Universities are no longer a place to fear, 
but rather a place students long to be because they see the richness of 
the college experience and GEAR UP provides consistent support to make 
college trips possible.
    Educational Exhibits--Instruction outside of the textbook is key to 
understanding the depth of content material. GEAR UP students are 
consistently exposed to educational field experiences. This year UTPA 
provided GEAR UP students a guided tour of The Henrietta Marie Slave 
Ship Exhibit. Students saw first hand the atrocities of slavery and 
were able to better understand this period of American History with 
artifacts such as shackles, slave sales books, replicas of transport 
cabins, and listen to recorded accounts based on historical accounts of 
the voyage. GEAR UP students also have hands on learning in science 
when they visit the UTPA Coastal Studies Lab at South Padre Island. 
Students board a vessel and take a brief excursion where nets are cast 
and specimen collected for examination and classification at the actual 
lab. South Padre Island is approximately an hour from most cities in 
the RGV, but the majority of students have never visited and/or taken 
account of the natural science resources our area has to offer. I have 
been on the sailing vessel with students and their excitement is 
evident in their wide eyes as the net is lifted and the movement of sea 
life is visible. The net is dropped and opened on deck into a tank and 
fish, shrimp, sea horses, sting rays, and plant life frolic about * * * 
this moment is real learning and GEAR UP provides these types of real 
world connections to curriculum.
    Through GEAR UP, 929 students have received hand-on learning such 
as this.
    Career Exploration--During the 8th grade year GEAR UP students 
completed a career interest inventory that provided each student with a 
summary of work areas they may be interested in based on their 
responses to survey questions. GEAR UP then provides countless 
opportunities for students to explore those careers through fairs, job-
site visits, online virtual job shadowing, and student conferences. 
Recently we hosted a Career Extravaganza held at the University of 
Texas Pan American with over 1000 students and collaborated with each 
College within the University to have guest speakers in professions 
that pertain to each , for example, in the College of Health Sciences 
students interacted with doctors, physical therapists, pharmacists, and 
physicians assistants to name a few. At the end of the day, some may 
have changed their mind about what they want to be when they grow up, 
but at least now they are informed and can make better choices later. 
This past year, 7,570 students have received career exploration 
services through GEAR UP.
            Component 3: Family and Community Outreach
    The UTPA GEAR UP Project understands that a well informed parent is 
an active and engaged parent. With that premise, our Project strives to 
provide parents with up to date information on the needs of their 
children. Each GEAR UP campus has both a GEAR UP Coordinator and Family 
Liaison that plan monthly parent meetings to provide parents with GEAR 
UP awareness and information on testing, study skills, college 
awareness, school policies, educational opportunities, financial aid, 
and opportunities for their own personal and educational growth through 
G.E.D. and E.S.L class offerings. Furthermore, parents are also engaged 
in the same type of educational experiences as their children with 
sessions on how to use Texas Instruments graphing calculators and the 
Navigator System, participation in experiments on the UTPA Regional 
Biotech Mobile Lab, college tours to UTPA and other local community 
colleges, and online research in the UTPA Mobile Go Center that brings 
a wealth of college access information right to their doorstep!
    Services provided in this area include:
    College Tours--Parents are continuously invited by the GEAR UP 
family liaison to attend college tours at UTPA and other local colleges 
in South Texas. Transportation for parents to attend college tours is 
provided through local school district GEAR UP funds or through the 
university GEAR UP budget. Parents are given the opportunity to visit 
some classrooms and ask questions regarding college admissions and 
financial aid.
    Las Platicas Academy--Each campus also identifies parents that are 
very involved at school and in the community and recruits those parents 
to complete an intensive training called the Las Platicas Academy. The 
Academy is a 15 clock-hour course that includes topics such as NCLB, 
growth and development, graduation plans, TAKS tests, study habits, 
organizational skills, college admissions, testing and financial aid 
information. After the 15 clock-hour course, the Family and Community 
Outreach Coordinator provides continuous updated monthly training for 
the Platicadoras. The training is conducted utilizing the Abriendo 
Puertas parent volunteer curriculum developed by Texas A&M University. 
UTPA and other local colleges also provide many resources for parent 
training. The intent is to continue to increase parents' knowledge 
about college requirements and build capacity to support their children 
with the goal of college made tangible through empowerment. Once 
parents complete the training, a graduation ceremony ensues at UTPA and 
they will be certified and known as ``Platicadores'' or parent 
volunteers. They will share acquired knowledge to empower and train 
other parents by conducting home visits, neighborhood walks and 
community outreach, spreading the message that every student will have 
access to college with GEAR UP Project support. The Project currently 
has graduated 100 Platicadoras and these parent volunteers are asked to 
in turn train a minimum of 25 parents in the community. This will 
result in approximately 2500 parents trained annually on college 
access.
    Monthly Parent Meetings/Training--The UTPA GEAR UP project 
partnered with the National Hispanic Institute to develop an 8th grade 
comprehensive curriculum that was utilized by the GEAR UP family 
liaisons to train parents in the middle school during monthly parent 
meetings. The development of the 9th grade curriculum is currently in 
progress. The middle school training consists of 9 modules in which 8th 
grade GEAR UP parents are trained in social influences and 
psychological shifts their child will experience at this critical age, 
popular undergraduate majors, 8th grade academic planning and beyond, 
timeline for early college preparation, navigating the application 
process and paying for college, and the importance of pursuing a 
rigorous curriculum in high school. Monthly parent meetings are held in 
the school and they are usually conducted in the evenings, during 
school hours and on weekends. Due to our diverse population of parents, 
family liaisons offer on-going monthly sessions. Parent meetings are 
also held out in the community in places such as public libraries or 
local places of worship. Home visits are conducted often by the family 
liaisons for parents that cannot attend meetings on campus. The family 
liaison conducts the parent training during the home visit.
    Parent College Summits/Conferences--There are two annual parent 
conferences that are held to inform parents about college admissions, 
financial aid, core content area training and making sure their 
children are on track for college. The conferences utilized a workshop 
style approach to ensure parent engagement. This year each GEAR UP 
parent conference attracted approximately 300 parents. Parents 
evaluated the conference through the GEAR UP evaluation survey.
    ESL/GED Classes--Parent literacy opportunities are made available 
through the Project. GEAR UP collaborates with the Educational Service 
Center and local school districts to support their parent literacy 
programs.
    Parent and Student Engagement--The GEAR UP Family and Community 
Outreach Coordinator is always looking for opportunities to provide 
parent training through meaningful and exciting ways. Many times a 
student event is that perfect opportunity! The parent will attend the 
event with their child and as their child is receiving training in 
matters such as which classes to take in high school, the parent is 
receiving training on the benefits of a pre-AP or AP curriculum. The 
GEAR UP Project, the university and other local colleges have held such 
events. A Career Extravaganza was held recently in which approximately 
1,200 students received information about career awareness, taking the 
appropriate high school courses and were given opportunities to explore 
the different majors available to them in college. Parents also 
attended the Career Extravaganza and received training from GEAR UP and 
university personnel regarding parental involvement in post-secondary 
institutions, financial aid planning and the understanding high school 
credits. Parents are also invited to listen to motivational speakers 
throughout the year to assist in reinforcing the message at home about 
making good grades and making plans to attend college. Our GEAR UP 
parents have also attended and assisted with community service 
activities with their children to better understand the meaning of a 
well rounded student.
            Component 4: Professional Development
    At the cornerstone of student success, is teacher preparation and 
the UTPA GEAR UP Project recognizes the need for continued professional 
development of teachers. Our goal is to provide teachers with training 
that will assist them in promoting rigor and challenging coursework in 
their classrooms.
    Services provided in this area include:
    Master's Degree Tuition Assistance Program--Our Project provides 
teachers the opportunity to attain a Master's degree in critical areas 
such and math and science. Each year, teachers that work with GEAR UP 
students may apply for tuition assistance to pay for the courses on 
their degree plan that will lead to a Master's degree in the area they 
teach. This is a systemic contribution to our area as teachers become 
more educated in their fields, then the more depth their teaching will 
hold in the classroom.
    Texas Instruments--Through a partnership with Texas Instruments, 
over 150 GEAR UP teachers have received an intensive 12 day training on 
math strategies and the use advanced equipment called the TI Navigator 
that works in conjunction with graphing calculators. Once teachers 
completed the training, their classroom was equipment with a TI 
Navigator and a class set of TI-84 calculators to supplement 
instruction.
            Component 5: Higher Education Collaborative
    This component of our grant is critical in establishing a smooth 
transition of GEAR UP students into college and universities across 
Texas and the nation. Communication and planning must exist between 
public schools and institutions of higher learning and GEAR UP has 
become the active liaison between the two and continues to make strides 
in this area.
    Services provided in this area include:
    College for Texans Campaign: Go Centers--The establishment of Go 
Centers in schools can also be attributed to GEAR UP intervention. The 
Go Centers are an initiative established by the Texas Coordinating 
Board's College for Texans Campaign as a response to low college 
enrollment and post-secondary degree attainment throughout the state. 
The UTPA GEAR UP Project has collaborated with the UTPA Valley Outreach 
Center to help launch Go Centers at GEAR UP schools. The Go Center 
itself is a physical location where internet ready computers and 
countless types of college access information is available to students; 
the center is manned by a G-Force that is a group of students at the 
school that are peer mentors in the area of college access and 
enrollment. The Go Center makes college a part of the high school 
culture and defines college as an expectation for all students.
    Adopt-a-School Mentoring--GEAR UP and the UTPA Division of 
Enrollment and Student Services have formed a mentoring program that 
pairs University employees with local GEAR UP middle schools to provide 
college access information. In this initiative, directors in the 
Division ``adopt'' a GEAR UP middle school and visit that school 
throughout the year to give presentations in rallies, classrooms, 
parent meetings, and one on one mentoring with a central message: You 
can and will go to college if you prepare early, study hard, and make 
the right choices!
    Partnership with The University of Texas-Pan American--The services 
provided by our grant are facilitated by our fiscal agent and 
educational partner, The University of Texas-Pan American. UTPA 
educates the most Mexican American students in the nation and ranks 
second in the nation in the number of bachelor's degrees awarded to 
Hispanics. Recently, it was named by The Hispanic Outlook in Higher 
Education as one of the nation's ``Top 100 Colleges for Hispanics''.
    Approximately 67% of UTPA students receive need-based financial 
aid.
    Of the 11,489 students awarded need-based aid in FY2006 (fall/
spring), 8,354 students (73%) were Pell eligible (economically 
disadvantaged). Of the Pell eligible students, 4,966 (59%) had a zero 
Expected Family Contribution (EFC).
    GEAR UP students are able to benefit from different access programs 
made available through UTPA; some of which include:
    Texas Scholars--A state-wide incentive program to motivate a 
greater number of students to prepare for the future by completing the 
Recommended
    High School Program, a more rigorous academic path. This program is 
through the Texas Business & Education Coalition (TBEC) and receives 
support from UTPA and local and state business leaders.
    UTPA Concurrent Enrollment--UTPA invites high school juniors and 
seniors who attend high school in the surrounding Rio Grande Valley 
school districts to apply for admission to the Concurrent Enrollment 
program. In AY 2006, concurrent enrollment had increased its enrollment 
by more than 730% compared to its enrollment in 1998. AY 2006 
enrollment was 1,227 while AY 1998 had only 167 students. Students 
earning satisfactory grades were over 91%. Between 2003 and 2005 an 
average of 59.6% of CE high school graduates matriculated to UTPA as 
entering freshmen. Of the graduation class of 2001, 33% of the students 
graduated from UTPA within four years and maintained a mean GPA of 3.4 
on a 4.0 scale.
    UTPA offers a unique program called University Scholars; it is a 
four-year tuition and fee scholarship awarded to students who have 
successfully earned college credit through Advanced Placement 
examinations and/or Concurrent Enrollment at UTPA. It is designed in 
1998 to encourage high school students to enroll in rigorous academic 
coursed that will prepare them for success at the college level. 
Participation in the program has increased from 19 students in 1998 to 
301 students in 2006.
    UTPA is also home to long standing TRIO federal programs such as 
CAMP, Upward Bound, Upward Bound Math and Science, Educational Talent 
Search, and HEP.
    The merits of The University of Texas-Pan American are a true 
benefit to the GEAR UP program because they provide constant support to 
local school districts and provide access opportunities to GEAR UP 
students and their parents to make the aspiration to attend college a 
reality.
                                 ______
                                 
    Chairman Hinojosa. Thank you.
    I would like to call on Dr. Martinez.

 STATEMENT OF MARIA D. MARTINEZ, DIRECTOR, CENTER FOR ACADEMIC 
              PROGRAMS, UNIVERSITY OF CONNECTICUT

    Ms. Martinez. Chairman Hinojosa, Ranking Member Keller, 
Representative Courtney----
    Chairman Hinojosa. Excuse me, would you get the mike up 
closer to you, please? And turn it on.
    Ms. Martinez. Okay. Sorry about that.
    Chairman Hinojosa. There you go.
    Ms. Martinez. Chairman Hinojosa, Ranking Member Keller, 
Representative Courtney and members of the committee, it is an 
honor to testify before you today on the topic of ``The Higher 
Education Act: Approaches to College Preparation.''
    I am Dr. Maria Martinez, director of the Center for 
Academic Programs at the University of Connecticut. My office 
oversees an array of programs that expand and improve college 
access and retention of disadvantaged students.
    Connecticut may be the most affluent state in the union, 
and its citizens are definitely among the best-educated, yet 
there are also pockets of poverty in our state which lead to 
serious inequities in college access and completion.
    More than 300,000 of Connecticut's schoolchildren are 
eligible for free and reduced lunches, and 12 percent of 
families have incomes of less than $15,000 a year.
    In 1983, the university established our center. Annually, 
through federal, state, institutional and private funds, our 
center works with more than 2,500 college and pre-college 
students. Yet we, together with other college access efforts in 
Connecticut, are just scratching the surface of the students 
who could be served.
    Our pre-college programs include GEAR UP, Talent Search, 
and Upward Bound. Our college program is Student Support 
Services. Pleased by the success of Talent Search and Upward 
Bound, the state of Connecticut has established the Conn-CAP 
program, built on the TRIO model.
    I will concentrate my remarks on our highly effective TRIO 
programs.
    The university has sponsored TRIO since 1967, because we 
know and can prove that they work. Over the past 40 years, 
thousands of students have been able to overcome the academic, 
social and cultural barriers to entering and completing college 
by participating in TRIO.
    As you know, TRIO programs serve students who are low-
income and/or first-generation, which means that neither parent 
earned a college degree. Most of our students fall into both 
categories.
    Talent Search is a low-cost, early-intervention program 
serving young people in grades 6 through 12 in New Haven and 
Windham. I am proud to report that our Talent Search high 
school graduation rate is 94 percent. And then 91 percent of 
these students go on to post-secondary education.
    Those numbers are truly remarkable when you consider that 
our state's overall high school graduation rate is 84 percent 
but only 60 percent of students graduate from districts with 
high percentages of low-income students.
    Upward Bound targets students who have completed 8th grade 
and serves high-schoolers in New Haven, Waterbury, Hartford and 
Windham. A smaller and more intensive program than Talent 
Search, Upward Bound includes a 6-week residential program on 
campus.
    Ninety-four percent of the Upward Bound students enroll in 
college, and 85 percent of them graduate from college. That is 
an extraordinary record of accomplishment for disadvantaged 
students. Nationally, only about 26 percent of students from 
families earning less than $25,000 a year graduate from college 
in 6 years or less. This number jumps to 79 percent for 
students with family incomes between $25,000 and $75,000 a 
year.
    Student Support Services, SSS, at the university serves 
students who are academically at risk, typically because of 
inadequate high school preparation. SSS helps students 
successfully enter and stay in college. They also participate 
in a 6-week summer program prior to entering the university.
    Despite financial and other pressures common to students 
from working-poor families, nearly 100 percent of the SSS 
students are retained between the freshman and the sophomore 
year. This compares very well with the 93 percent rate for the 
general population at the university and 75 percent across the 
Connecticut state university system.
    About 60 percent of the SSS students graduate in 6 years or 
less. To put this in context, the Connecticut state university 
system has an overall 6-year graduation rate of 40 percent. 
Graduating 60 percent of at-risk students in 6 years is truly 
an achievement and clearly demonstrates the effectiveness of 
the SSS program.
    We strictly document all of our services and maintain 
databases to record students' progress. I think you will agree 
that I am understandably satisfied with the result of our TRIO 
programs.
    But what I need you to appreciate is that our record of 
achievement confirms the success of TRIO programs and its 
impact nationwide. TRIO is a pipeline of powerful programs that 
help nearly 900,000 students per year to prepare for, enter and 
complete college.
    I would like to briefly share the story of one of our many 
distinguished alumni, Dr. Franklin Chang-Diaz. Franklin Chang-
Diaz is the first Hispanic astronaut. Long before he stepped 
onto the space shuttle, he was a student making progress toward 
the undergraduate degree with the help and support of TRIO SSS. 
Dr. Chang-Diaz flew seven space missions, and today he credits 
TRIO with helping change his life. And he puts it best. He 
says, ``TRIO is one of the ways this country really becomes the 
land of opportunity.''
    I thank Congressman Courtney for his interest in our 
program, and I thank the committee for allowing me the chance 
to address you.
    [The statement of Ms. Martinez follows:]

Prepared Statement of Maria D. Martinez, Director, Center for Academic 
                  Programs, University of Connecticut

    Chairman Hinojosa, Representative Courtney and Members of the 
Committee: It is an honor to testify before you today on the topic of 
The Higher Education Act: Approaches to College Preparation. I am Dr. 
Maria D. Martinez, Director of the Center for Academic Programs at the 
University of Connecticut. My office oversees an array of programs that 
expand and improve college access and retention for disadvantaged 
students.
    Connecticut may be the most affluent state in the Union and its 
citizens are definitely among the best educated. Yet, there are also 
pockets of poverty in our state, which leads to serious inequities in 
college access and completion. More than 300,000 of Connecticut's 
school children are eligible for free or reduced lunches, and 12 
percent of families have incomes of less than $15,000 a year.
    In 1983 the University established our Center. Annually, through 
federal, state, institutional and private funds, our Center works with 
more than 2,500 college and pre-college students. Yet we, together with 
other college-access efforts in Connecticut, are just scratching the 
surface of the students who could be served.
    Our pre-college programs include GEAR UP, Talent Search, and Upward 
Bound; our college program is Student Support Services. Pleased by the 
success of Talent Search and Upward Bound, the state of Connecticut has 
established the Conn-CAP program, built on the TRIO model. I will 
concentrate my remarks on our highly-effective TRIO programs.
    The University has sponsored TRIO programs since 1967 because we 
know and can prove that they work. Over the past 40 years thousands of 
students have been able to overcome the academic, social and cultural 
barriers to entering and completing college by participating in TRIO. 
As you know, TRIO programs serve students who are low-income and/or 
first generation, which means that neither parent earned a college 
degree. Most of our students fall into both categories.
    Talent Search is a low-cost early intervention program serving 
young people in grades six through twelve in New Haven and Windham. I 
am proud to report that our Talent Search high school graduation rate 
is 94 percent, and that 91 percent of these students go on to post-
secondary education. Those numbers are truly remarkable when you 
consider that our state's overall high school graduation rate is 84 
percent but only 60 percent of students graduate from districts with 
high percentages of low-income students. (Swanson, C.B., 2004).
    Upward Bound targets students who have completed eighth grade and 
serves high schoolers in New Haven, Waterbury, Hartford and Windham. A 
smaller and more intensive program than Talent Search, Upward Bound 
includes a six- week residential program on campus. Ninety four percent 
of the Upward Bound students enroll in college, and 85 % graduate. That 
is an extraordinary record of accomplishment for disadvantaged 
students. Nationally only about 26 percent of students from families 
earning less than $25,000 a year graduate from college in six years or 
less. This number jumps to 79% for students with family incomes between 
$25,000 and $75,000. (Vincent Tinto, 2004)
    Student Support Services (SSS) at the University serves students 
who are academically at-risk, typically because of inadequate high 
school preparation. SSS helps students successfully enter and stay in 
college. They also participate in a six-week summer program prior to 
entering the University.
    Despite financial and other pressures common to students from 
working poor families, 100 percent of the SSS students are retained 
between the freshman and sophomore years. This compares very well with 
a 93% rate for the general population at the University and 75% at the 
Connecticut State University System.
    About 60 percent of SSS students graduate in six years or less. To 
put this in context, the Connecticut State University System has an 
overall six-year graduation rate of 40 percent. Graduating 60 percent 
of at-risk students in six years is truly an achievement, and clearly 
demonstrates the effectiveness of the SSS program.
    We strictly document all of our services and maintain databases to 
record students' progress. I think you will agree that I am 
understandably satisfied with the results of our TRIO programs. But 
what I need you to appreciate is that our record of achievement 
confirms the success of TRIO and its impact nationwide. TRIO is a 
pipeline of powerful programs that help nearly 900,000 students per 
year to prepare for, enter and complete college.
    I would like to briefly share the story of one of our many 
distinguished alumni. Dr. Franklin R. Chang-Diaz was America's first 
Hispanic astronaut. Long before he stepped onto the space shuttle, he 
was a student, making progress toward his undergraduate degree with the 
help and support of the TRIO-SSS program. As a teenager Dr. Chang-Diaz 
did not speak English very well. But he dreamed of studying physics and 
engineering. Through hard work and the assistance of the SSS program, 
he graduated from the University, earned a Ph.D. in plasma physics at 
MIT, and ultimately was recruited by NASA.
    Dr. Chang-Diaz, who flew seven space missions (which is the current 
world record), vividly remembers the challenges of his early years, and 
credits TRIO with helping change his life. When asked about TRIO's 
impact, Dr. Chang-Diaz, said it best: ``TRIO is one of the ways this 
country really becomes the Land of Opportunity.''
    TRIO programs have been changing lives for generations. I urge you 
to consider the information I have shared with you today in making 
decisions about; not only keeping TRIO but also expanding our reach.
    I thank Congressman Courtney for his interest in our programs, and 
I thank the committee for allowing me this chance to address you.
                                 ______
                                 
    Chairman Hinojosa. Thank you.
    Now I would ask Mr. Linn if he would please make his 
presentation.

 STATEMENT OF DANE LINN, DIRECTOR, EDUCATION DIVISION, CENTER 
       FOR BEST PRACTICES, NATIONAL GOVERNORS ASSOCIATION

    Mr. Linn. Good afternoon, Mr. Chairman and members of the 
subcommittee. It is my honor to testify to you this afternoon 
on behalf of the National Governors Association.
    As Chairman Hinojosa mentioned, my name is Dane Linn, and I 
serve as director of the Education Division for the National 
Governors Association's Center for Best Practices.
    As the bipartisan organization representing the nation's 
governors, NGA promotes visionary state leadership, shares best 
practices, and speaks with a unified voice on national policy.
    It is an honor to testify on the recently released NGA 
federal legislative package on innovation and other governor-
led state efforts to prepare students for post-secondary 
education.
    A recent public opinion survey conducted for the NGA found 
that nine out of 10 Americans, both Democrats and Republicans 
alike, believe that if our nation fails to innovate, our 
children and our economy will be left behind.
    And while Americans believe we currently have the most 
innovative nation in the world, they see us losing ground in 20 
years. Why is that? Simply put, Americans believe other nations 
are more committed to education. We cannot lead the global 
economy if our educational system is lagging behind.
    What can we do to secure our economic position in the 
world? Americans believe the solution is innovation. Asked in 
the NGA survey what action would have the most positive impact 
on the economy, nearly half selected ``encouraging and 
supporting innovation in our schools and business.''
    Governor are meeting this challenge head-on through a bold, 
comprehensive, nationwide initiative entitled, ``Innovation 
America.'' Led by NGA Chair and Arizona Governor Janet 
Napolitano, the initiative is guided by a bipartisan task force 
of governors and business and academic leaders.
    From coast to coast, governors are developing and 
implementing strategies to ensure their students are equipped 
to take advantage of the opportunities a knowledge-based 
economy offers.
    Congress can assist governors by supporting the NGA 
Innovation America partnership. Together with the Council on 
Competitiveness, this federal legislative policy framework will 
assist states in developing collaborative efforts between the 
public, private and education sectors.
    This framework emphasizes science, technology, engineering 
and math, or STEM, education, and foreign language proficiency; 
enhances workforce systems; and promotes economic development 
strategies that harness state and regional assets.
    More detailed information can be found in the written 
testimony that I have provided.
    But for the purpose of my testimony today, NGA was asked to 
specifically focus on what is commonly referred to as P-16 
councils and other state activities to prepare students to not 
only access post-secondary education but to succeed as well.
    Today, over 30 states have what is called P-16 councils. In 
some states they are known as P-20 councils. These coordinating 
bodies, led or created by governors through executive order or 
legislation, vary from state to state, but each shares the 
common focus of improving the education and economic conditions 
of their state.
    Governors are also investing in the development and 
improvement of longitudinal data systems. These data systems, 
which allow states to make data-driven decisions to improve 
student results, will provide transparency and accountability 
in the education system.
    Both longitudinal data systems and P-16 councils are 
necessary steps for developing a coordinated and aligned 
education system with an overarching goal of increasing post-
secondary and work readiness.
    Governors are leading these efforts in several ways. In 
Arizona, for example, the P-20 council is chaired by Governor 
Napolitano. That council is focused on developing a strong 
foundation in STEM education and strengthening curriculum and 
standards to prepare students for post-secondary education and 
to meet the demands of the workforce.
    Virginia Governor Tim Kaine pushed the state's P-16 council 
to define college readiness, and led the development of a P-16 
longitudinal data system. Virginia has focused on two areas: 
the identification and the replication of high-performing 
schools and using its data system to identify student 
weaknesses before they find themselves placed in remedial 
classes in college.
    And in Indiana, the governor and the state superintendent 
co-chaired the Indiana Education Roundtable. Working in 
conjunction with the state board of education, the roundtable 
raised the state's high school standards and aligned them with 
the expectations of the state's post-secondary institutions. As 
a result, Indiana has moved from 40th to 17th in the nation in 
measures of college attendance.
    While each state's P-16 council is working toward a common 
goal of college readiness, each state's council is unique in 
its structure and leadership. Such flexibility is critical in 
allowing governors the opportunity to create the most effective 
councils for their states.
    Congress can partner with governors to create and fund a 
number of grants that support P-16 councils and the enhancement 
of state longitudinal data systems. These grants will allow 
states to link and use student performance data to coordinated 
K-12 and higher education planning, budgeting and goal-setting.
    I want to thank you, Mr. Chairman, for your interest in the 
governor-led actions to help states prepare students, again, 
for both college and work through P-16 councils and 
longitudinal data systems.
    Governors stand ready to work with you to ensure our nation 
remains a leader in innovation by giving our students a world-
class education system.
    Thank you.
    [The statement of Mr. Linn follows:]

 Prepared Statement of Dane Linn, Director, Education Division, Center 
           for Best Practices, National Governors Association

    On behalf of the National Governors Association (NGA), it is an 
honor to testify before you today on the recently released NGA federal 
legislative package, Innovation America: A Partnership, and other 
governor-led state efforts to prepare students for postsecondary 
education.
    Founded in 1908, NGA is the collective voice of the nation's 
governors. It promotes visionary state leadership, shares best 
practices and speaks with a unified voice on national policy.
A Call for Action
    Today's U.S. economy is confronted with a new and remarkable 
paradox. While the economy continues to grow and roughly two million 
new jobs were created each year since 2004, many American families have 
a feeling of uncertainty and concern about the economy and their 
future. When asked the question, ``Will your children or grandchildren 
have a better life than you?'' for many the answer is, ``No.''
    According to a recent nationwide public opinion poll conducted by 
Dr. Frank Luntz for the nation's governors, 9 out of 10 Americans--
Democrats and Republicans alike--believe that if our nation fails to 
innovate, our children and our economy will be left behind. And while 
Americans believe we have the most innovative nation in the world at 
the moment--ahead of China and Japan--they see America losing ground in 
20 years. Why? According to the poll, Americans believe that other 
nations are more committed to education. America's economic future is 
inextricably linked to education and the public's perception of our 
education system. Simply put, American cannot lead the new global 
economy if our educational system is lagging behind.
    Our nation has a powerful incentive to improve the education 
pipeline. In the next decade, two-thirds of new jobs will require some 
postsecondary education beyond a high school degree. To be competitive 
and create the conditions for strong economic growth, states need to 
help all their residents increase their skills and be prepared for 
lifelong learning. Much is at stake.
    ``Good jobs''--jobs that are growing quickly and pay enough to 
support a family of four--require postsecondary education or training. 
More than two-thirds of workers in occupations and industries that are 
growing have at least some postsecondary education, compared with one-
third of workers in occupations and industries that are declining. 
Moreover, 67 percent of new jobs created by 2010 will demand skills 
that require at least some college education. This rapid increase in 
the demand for postsecondary education will be accompanied by baby-boom 
retirements, resulting in a predicted shortage of more than 14 million 
college educated workers by 2020.
    While the American higher education system has long been a 
centerpiece of the U.S. economy, and the launching pad for the jobs of 
the future, the skills needed by students today are far different than 
the expectations and education of yesterday. Today, integrating diverse 
subject matters is as important as mastering individual ones. Students 
not only need to be well-rounded, they also need entrepreneurial 
skills, and the capacity to imagine and adapt to the unknown.
    What can be done to secure our economic position in the world? 
Americas believe the solution is innovation. Asked in the Luntz survey 
what action would have the most positive impact on the economy, nearly 
half (46 percent) said it's ``encouraging and supporting innovation in 
our schools and businesses.'' Interestingly, focusing on innovation had 
more support than either tax incentives for small business (28 percent) 
or raising the minimum wage (24 percent).
Governors' Innovation America Agenda
    Across the nation, governors are confronting these challenges 
through a bold, comprehensive nationwide initiative, entitled 
Innovation America, lead by NGA Chair, Arizona Governor Janet 
Napolitano.
    Governor Napolitano's Innovation America represents a multi-tiered, 
comprehensive strategy to propel the rapid deployment and development 
of innovation in America by improving education, encouraging economic 
development, and ensuring worker competitiveness. Under the initiative, 
Governors have taken the lead with the following concrete acts:
    <bullet> Innovative Thinking: Established a bipartisan Innovation 
America Task Force of governors, business leaders, and academics to 
develop innovation-based education and economic strategies in three 
sectors:
    1. Improving science, technology, engineering and mathematics 
(STEM) education;
    2. Enabling the post-secondary education system to better support 
innovation; and
    3. Encouraging business innovation through supportive state 
policies.
    <bullet> State Action: Collected best practices in education and 
economic development to inform governors' work and raised private funds 
to help implement innovation policies; and
    <bullet> New Federal Partnerships: Developed a package of federal 
legislative recommendations to focus on the role of states in promoting 
innovation and to compliment federal efforts.
Governors Lead Innovation State Strategies
    Given the seriousness of the competitive challenge to our nation, 
governors are developing strategies to accelerate innovation 
opportunities within their states. Governors are improving and 
realigning state programs to encourage cross-sector collaboration, 
target investments and measure outcomes in the critical areas of 
education, economic development and workforce training. These state 
strategies, developed by the NGA Innovation America Task Force, are 
further detailed below:
K-12 Science, Technology, Engineering, and Mathematics (STEM) Education
    Governors know that ensuring a quality education for all students 
at the K-12 level is critical for the economic well-being of their 
states. The Innovation America initiative seeks to improve the rigor 
and relevance of science, technology, engineering, and mathematics 
(STEM) teaching and learning in K-12 classrooms in order to (a) 
increase the supply of students interested in and prepared for STEM 
related careers; and (b) help provide all high school graduates the 
higher level critical thinking, adaptive, and problem solving skills 
necessary for success in postsecondary education and the workplace.
Postsecondary Education
    The American higher education system has been a centerpiece of the 
U.S. economy, producing much of the nation's innovative talent--
scientists, engineers, technicians, and managers--and the majority of 
its publicly-funded research. Over the past several years, however, 
other nations and regions have entered the global marketplace by 
successfully duplicating and even improving upon this model. The 
Innovation America initiative seeks to engage governors in rethinking 
the role of higher education: what are the new models that will carry 
our country to the next level of innovation and prosperity.
Regional Innovation
    All states can develop innovation-based economies by building 
innovation capacity and establishing policies that support their most 
promising industries and regions (i.e., those areas within the state 
that contain clusters of high-growth, innovative businesses). States 
must recognize their inherent competitive strengths and align policies 
and investments to support these business sectors and the regions in 
which they reside. This means that workforce training and educational 
institutions must address the skills needed to meet the demands of 
fast-growing firms. R&D investments must be aligned with regional 
business strategies, and entrepreneurial support efforts must take into 
account the products and services unique to the region. The Innovation 
American initiative will enhance a state's innovation environment by 
helping state businesses move into a stronger position to exploit the 
opportunities presented by changes in technologies and markets--
opportunities to increase productivity, develop new products, and 
expand into new markets.
    The federal government, notably the work of the House Education and 
Labor Committee and this Subcommittee, can play a pivotal role to 
ensure the economic position of our nation and the future our children 
through the NGA Innovation America: A Partnership.
Innovation America: A Partnership with the Federal Government
    America's continued economic prosperity and growth will be driven 
by the nation's ability to generate ideas and translate them into 
action. The National Governors Association, together with the Council 
on Competitiveness, developed a federal legislative proposal to 
complement federal legislative activity and encourage state efforts to 
accelerate the rate of U.S. innovation and economic prosperity. The NGA 
federal package proposes a federal policy framework to assist states in 
developing collaborative efforts between public, private and education 
sectors.
    A full copy of NGA's legislative package, Innovation America: A 
Partnership, and related NGA education policies are enclosed with my 
testimony. Our federal legislative proposal contains three broad areas 
for reform: Education, Workforce Development, and Regional Investment. 
The following is a brief summation of each section and related 
governors' federal recommendations.
Part One: Education--Math, Science, and Foreign Language Proficiency
    Aligning and refocusing education from birth to college (P-16) is 
essential to ensure our nation's competitiveness. The skills needed for 
individuals to compete and prosper in the global economy require a 
strong foundation in science, technology, engineering, and mathematics 
(STEM) and foreign languages. Governors' seek to create a targeted, but 
flexible and coordinated approach to address these critical national 
education needs through federal recommendations in the following key 
areas:
    <bullet> Support for Students and Teachers. Programs to encourage 
students to pursue higher education and careers in mathematics, 
science, technology, engineering, and critical foreign languages, and 
to infuse the education pipeline with high quality STEM and critical 
foreign language teachers, particularly in high-need and hard-to-staff 
schools.
    <bullet> STEM Education Improvement Grants. Matching grants to 
governors or a consortium of governors to provide resources and 
technical assistance to implement or expand STEM education and 
infrastructure activities.
    <bullet> High School Redesign Enhancement. Programs to expand and 
replicate governor-led high school redesign efforts around the country.
    <bullet> Voluntary International Benchmarking. Grants to allow 
governors to request a voluntary analysis of state standards with the 
skills being measured on Program for International Student Assessment 
(PISA) and Trends in International Mathematics and Science Study 
(TIMSS) and incentive grants to implement governor-led solutions.
    <bullet> State P-16 Alignment. Matching grants to implement or 
develop aligned state P-16 councils and implement solutions to patch 
holes in the P-16 pipeline, and direct grants to create efficient state 
P-16 longitudinal data systems.
Part Two: Workforce Enhancement
    The strength of America is our citizens--their innovation, 
creativity, and hard work. Governors' proposal would help states create 
efficient workforce systems aligned with regional education and 
economic development; enhance services to workers; and reduce costly 
administrative burdens to regions, states, and localities, while 
creating more transparent accountable systems. Specifically, governors 
recommend changes to the Workforce Investment Act (WIA) and related 
programs to create the following:
    <bullet> State and Regional Economic Alignment Program. The program 
will increase coordination, innovation, and effectiveness of state 
workforce programs.
    <bullet> Common Outcome Measures. The program will increase 
workforce system alignment through NGA common accountability measures, 
while focusing on meaningful customer outcomes related to education and 
employment readiness, reducing administrative costs and increasing 
transparency to evaluate federal, state, and local investments.
    <bullet> State and Regional Economic Development through Workforce 
Investment. The program will award matching grants to states to carry 
out innovative and coordinated WIA programming consistent with the 
statewide, regional, or sector specific economic and educational 
interests.
Part Three: Regional Innovation
    Because competition and innovation will be driven by high-growth 
economic regions in the 21st century global economy, economic 
development strategies must encompass and harness state regional 
assets. Governors' recommend the following to pull together diverse 
sectors to create a culture of collaboration and cooperation that will 
accelerate innovation and economic growth for our nation.
    <bullet> Competitive Innovation Grants. Competitive planning grants 
used to establish Innovation Councils. The mission of the councils 
would be to facilitate collaboration between public, private and 
educations sectors to accelerate the rates of innovation.
    <bullet> Competitive Research and Development Grants Program. This 
program will provide state and regional innovation Councils with the 
research and development funds to stimulate the rate of innovation and 
implement their strategic plans.
    <bullet> Grants for Broadband Deployment. This program will provide 
states with funds needed to increase access, adoption and usage of 
broadband technology, as well as provide financial assistance to 
continue to update technology.
    <bullet> Competitive Stimulus Grants. This program will provide 
states with continuing incentives to extend economic development 
opportunities for innovation-driven industries and services.
    For the purposes of today's hearing, NGA was asked to address in 
further detail State P-16 Councils and recommendations that would 
prepare students for higher education.
Education Innovation Begins with P-16 Alignment
    The engines of education--early, elementary and secondary, and 
post-secondary--must move in the same direction for the U.S. economy to 
charge ahead and remain competitive. In the 21st century, our economic 
strength will depend on the ability of each state, and our nation as a 
whole, to develop a coordinated and aligned education system that 
supports, trains, and prepares skilled workers.
State P-16 Councils
    The first step is corralling the fragmented education system with 
P-16 councils. Across the country, governors are leading efforts to 
create state P-16 councils to oversee the integration of early, 
elementary, secondary, and postsecondary education. From California to 
Georgia to Delaware, approximately 30 states have state P-16 councils 
or governance bodies.
    Through executive orders and state legislation, Governors are 
creating integrated education systems in which all levels of education 
coordinate, communicate, and educate as one system instead of separate, 
isolated silos. While the structures and names of the state councils 
may vary, the goals are always the same: to create a seamless education 
system to improve academic achievement and economic development.
    Several of the major advantages of state P-16 councils include:
    <bullet> smoothing student transitions from one level of learning 
to the next, e.g. high school to college;
    <bullet> aligning teacher preparation with the demands of today's 
and tomorrow's classrooms;
    <bullet> reducing costly administrative inefficiencies, 
duplication, or inconsistencies;
    <bullet> identifying and fixing holes in the education pipeline; 
and
    <bullet> closing the achievement gap and improving outcomes for all 
students.
    Most notably, for the purposes of our discussion today, state P-16 
councils are critical to help prepare students for postsecondary 
education. Specifically, state P-16 councils can:
    <bullet> identify the skill gaps for students to prepare and be 
successful in higher education;
    <bullet> redesign high school graduation standards to match college 
entrance requirements;
    <bullet> target for improvement schools that produce students with 
high remediation rates; and
    <bullet> improve student postsecondary success and attainment 
rates.
Governors Leading State P-16 Councils
    Governors are uniquely positioned to provide vision and leadership 
for P-16 initiatives in their states. The bully pulpit of the 
governor's office is critical to increase public awareness and 
engagement, assemble the right team at the table, and build and sustain 
consensus for change. As governors demand results, turf wars or 
institutional resistance are overcome and traded-in for a common, 
collaborative vision. Creating a more integrated, seamless education 
system involves grappling with a host of complex issues, including 
standards, testing, teacher education, college admissions policies, 
governance, and funding streams, to name just a few.
One-Size Does Not Fill All
    P-16 Councils vary in structure, leadership, and membership. Such 
flexibility is necessary to ensure that the councils will be effective 
within the context of their individual state and local education 
systems. Flexibility is vital to both a governor's ability to work 
within the existing infrastructure as well as to draw informed, 
committed leadership to participate in the process. The following 
examples illustrate the different ways in which governors created 
effective state P-16 councils.
    In Arizona, in order to bring business leaders, policy makers and 
educators to the table, the P-20 Council, chaired by Governor 
Napolitano, was established by Executive Order No. 2005-19 in 2006. The 
Council, comprised of educators, university presidents, elected 
officials, and business leaders, is focused on developing a strong 
foundation in science, technology, engineering and mathematics, and 
strengthening curriculum and standards to prepare students for post-
secondary education and meet the demands of the workforce. The result 
is an education continuum, with classes building on ideas that were 
taught in years prior, and students better equipped with industry-
specific skills in high-growth, high-wage occupations that await them 
when they graduate.
    Since taking office, Virginia's Governor Tim Kaine has embraced 
high school redesign. He pushed the state's P-16 Council to define 
college readiness and lead the development of a P-16 longitudinal data 
system. Virginia funded two studies now underway: 1) to identify high-
performing high schools and the qualities that make them successful; 
and 2) to examine academic weaknesses of recent high school graduates, 
focusing on graduates who are required to take remedial courses upon 
college entrance--an analysis utilizing the state's longitudinal data 
system.
    Statutory and constitutional changes gave Florida's governor the 
authority to appoint the state commissioner of education and other 
members of a single governing board that oversees kindergarten through 
postsecondary systems. With a centralized education governance 
structure, Florida designed a unified, P-16 longitudinal data system 
that identifies school districts whose graduates have high remediation 
rates in postsecondary programs.
    In Indiana, the governor and state superintendent co-chair the 
Indiana Education Roundtable, which consists of representatives from K-
12, higher education, business, labor, and community groups, as well as 
state legislators. Working in conjunction with the state board of 
education, the roundtable raised the state's high school standards and 
aligned them with the expectations of the state's postsecondary 
institutions. As a result, Indiana moved from 40th to 17th in the 
nation in measures of college attendance.
    The governor-created Georgia P-16 Council includes gubernatorial 
appointed members from a broad range of businesses, community groups 
and education agencies, including the Board of Regents and the State 
Board of Education. The challenge to the council was to work together 
to ``'raise the bar' of academic achievement for all students at all 
levels.'' Successes to date include increased enrollment in preschools, 
changes in students' course-taking patterns towards a more challenging 
curricula, a rising number of college-ready high school graduates, and 
revised teacher preparation policies aimed at supporting students from 
diverse backgrounds in meeting high standards.
    Oregon's K-16 system inspired by a Governor's Executive Order calls 
for meetings between representatives of the K-12 and higher education 
systems. Since then, the state has embraced two primary initiatives: 
aligning teacher preparation programs with K-12 performance standards, 
and developing the Proficiency-based Admissions Standards System 
(PASS). The Oregon University System developed PASS for two reasons. 
First, PASS aligns university admission standards with the statewide K-
12 school improvement plan based on demonstrated competencies and 
grades. As a result, high schools across the state have begun 
redesigning their curriculum.
    Delaware's P-16 Council, as part of the state's communication 
strategy around increased high school graduation requirements in math 
and science, held focus groups with parents and business leaders to 
determine their level of awareness about and support for the increased 
expectations for high school graduates. Focus group participants 
questioned whether the state and its districts and schools have the 
necessary capacity--in the form of highly qualified teachers, 
facilities, district and state support, public support, and funding--to 
meet the demands. In response to the concerns raised by these focus 
groups, Delaware developed recommended math and English language arts 
curricula; it has also charged subcommittees with the task of making 
recommendations for providing supports to teachers and students that 
would help students meet higher expectations.
Congressional Action to Innovate & Help Prepare Students for College
    Governors would like to partner with Congress to accelerate 
education innovation. Let me point to several additional specific ways 
that Congress can support state innovation and best practices.
    <bullet> Support State P-16 Councils and Solutions: P-16 councils 
are innovative and proven best practices that should be accelerated 
across our nation. Funding for this activity remains an issue. Though 
some P-16 councils (Georgia, Maryland and Wisconsin) have sustained 
funding and dedicated staff, most do not. Moreover, the lack of funding 
impedes implement of innovative council-identified solutions.
    Congress can overcome this barrier by partnering with governors to 
create and fund state P-16 Council Development Grants, and P-16 Council 
Solutions Grants to governors, as outlined in the NGA Innovation 
America: A Partnership proposal. In those states with existing P-16 
councils, Congress can support immediate action with incentive grants 
and technical assistance to implement solutions. Now is the time for 
action. Governors are willing to commit resources to this important 
endeavor, if you will partner with them. This work could be supported 
through new programs or new allowable uses of existing federal 
resources.
    In addition, Congress can help innovate in education through other 
strategies, such as:
    <bullet> Support State Determined P-16 Longitudinal Data Systems: 
Governors are also engaged in developing longitudinal data systems that 
are capable of tracking individual students, through the use of a 
numerical identifier, through the K-12 system and into the 
postsecondary education system. Such systems allow schools to track the 
progress of individual students as well as grade level cohorts of 
students as they move through the P-16 systems. Congress accelerate 
this important work by supporting, or allowing federal funds to be 
used, for P-16 Data System Grants as recommended in the NGA Innovation 
America: A Partnership proposal.
    <bullet> Leverage and Expand State High School Redesign Efforts: 
Governors are also leading other college readiness initiatives, 
including increasing access to Advanced Placement coursework, improve 
statewide access through virtual schools, strengthening P-16 
longitudinal data systems, and increasing access to dual enrollment and 
early college options. This myriad of strategies provides a wide range 
of students with an increased opportunity for college readiness and a 
better chance for success in all of their post secondary pathways. 
Congress can support governors' work by expanding access to Advanced 
Placement (AP), International Baccalaureate (IB) and certificate 
programs for all students and preparation for teachers and developing 
and enhancing state dual enrollment and early college programs. 
Additional recommendations are also proposed by governors' in this 
exciting and promising area of reform.
Conclusion
    Governors heard the clarion call of their citizens to take action. 
And I am pleased to report that in every corner of our nation, 
governors are leading.
    Governors' federal recommendations--education, workforce, and 
economic development--form the foundation for a new state-federal 
partnership to propel our nation forward and stay ahead in the new 
global economy. America's greatest asset has always been our human 
capital. Our nation was built by passion, creativity, and sheer 
determination. Each generation successfully worked to produce a better 
life than the last, and to pass on that dream to their children. This 
quintessential ``American'' dream endures.
    A new revitalized, coordinated, and targeted approach will help 
ensure our collective fate. Governors hope to forge a new state-federal 
partnership to ensure that America remains competitive in the 21st 
Century through Innovation America: A Partnership. Our nation must 
provide students and workers with the foundation for lifelong learning.
    The nation's governors stand ready to work with you.
                                 ______
                                 
    Chairman Hinojosa. Thank you.
    Now I ask our fourth presenter, Mr. Schramm, you may start.

       STATEMENT OF J.B. SCHRAMM, FOUNDER, COLLEGE SUMMIT

    Mr. Schramm. Thank you, Chairman Hinojosa, Mr. Keller, 
members of the subcommittee, for holding this hearing on 
college preparation.
    My name is J.B. Schramm, and I am the founder of College 
Summit. And it is an honor to be here and to be joined on this 
panel by leaders from NGA as well as from TRIO and GEAR UP, 
initiatives that we see making a big difference in the lives of 
young people around the country and that work in collaboration 
with College Summit programs in a number of states.
    And it is also an honor to have Ms. Schroeder here. I grew 
up in Colorado's 1st Congressional District.
    College Summit is a nonprofit organization that began 13 
years ago in the basement of a low-income housing development 
here in Washington.
    I had spent the 5 years before starting College Summit 
running a teen center in that basement. And I learned two 
things.
    The first was lots of talented young people graduate from 
high school in our neighborhood and don't go on to college. 
National data shows that there are 200,000 students a year who 
are low-income high school graduates, college-ready, but don't 
go on to college.
    The second thing I learned was that the high schools in our 
neighborhood didn't want any more programs that would come and 
disappear. They wanted someone to come in and help them build 
their capacity so that they could help their students succeed 
in college.
    So, based on that, we started College Summit to help low-
income communities raise their college-going rates by helping 
high schools build college culture.
    So, why is this important? Every student who is first in 
their family to get through college basically breaks the cycle 
of poverty in their family line forever. They are going to make 
$2 million more in the course of their career. Their children 
are going to be almost twice as likely to go to college.
    So, if we could fix the system so that these 200,000 
students succeeded in college every year, we would have these 
young people contributing about $80 billion more in taxes. So 
when programs like GEAR UP and TRIO and other effective efforts 
actually produce measurable results, the American taxpayer gets 
a return on their investment.
    So, where is College Summit? Today we work in 10 states. We 
work in high schools, serving 60,000 students around the 
country. For example, we work with a majority of all high 
school seniors in the cities of Oakland, St. Louis, Denver. 
Thanks to the Gates Foundation, we will be working throughout 
100 high schools in New York City. We also work in rural areas, 
such as McDowell County, West Virginia.
    Our partner superintendents tell us they like four elements 
of our model.
    Number one, we are capacity-builders. We teach them to fish 
so they can do this work on their own.
    Secondly, we work district-wide. So we give them tools so 
that they can manage success across their different high 
schools.
    Number three, our results are measurable. Our schools have 
been producing significant college enrollment rate increases 
school-wide over baseline based on externally verified data.
    And we provide significant financial support. The schools 
pay for our tools, but we also bring matching dollars from 
philanthropy to support our communities--over $30 million to 
date.
    What is it that College Summit does? Four things.
    One, we provide a course for all seniors in post-secondary 
planning. The thought is, when a young person has a good plan 
for what they are going to do after high school, they are more 
likely to finish successfully.
    Secondly, we provide professional development for teachers 
and counselors: 3-day-long trainings where they learn to run 
the course, to build college culture in their schools, and to 
raise their expectations of what their young people can 
accomplish.
    Number three, we help the school find the most influential 
students in the school, and we train them in 4-day summer 
programs, so that by the start of senior year those students 
have completed their financial aid and college admissions 
applications and they are ready to start supporting younger 
students in their community.
    And then fourth, we provide data measurement and management 
tools so that the school leaders see real-time what is 
happening with all the students in their classrooms, but also 
can see each month and each year what the outcomes are, so that 
they can spot what is working and spread it.
    I have three recommendations given by our partners from 
around the country, and I have included those in my written 
remarks. If any of you have any questions, I would be happy to 
discuss those in the question period.
    But I would just like to thank you for holding this 
session. The need for higher education is so great, and the 
potential reward if we can tap more of the talent in our 
diverse communities is so great that it is wonderful that you 
are focusing attention and resources on initiatives that can 
produce measurable results.
    Thank you, Mr. Chairman.
    [The statement of Mr. Schramm follows:]

      Prepared Statement of J.B. Schramm, Founder, College Summit

    Thank you, Chairman Hinojosa, Mr. Keller and members of the Higher 
Education, Lifelong Learning, and Competitiveness Subcommittee for 
holding this hearing today on Approaches to College Preparation. I'm 
J.B. Schramm, founder of College Summit. It is an honor to appear 
before you today, and to be on a panel with leaders from TRIO and GEAR 
UP, initiatives that make a big difference in the lives of young 
people, initiatives that College Summit is pleased to collaborate with 
in communities across the country.
    College Summit is a nonprofit organization that began 13 years ago 
in a low-income housing project here in Washington, D.C. For five 
years, I'd been running a teen education center there and learned two 
major things:
    1. Lots of impressive, promising young people graduated from high 
school college-ready and did not go to college.
    <bullet> Nationally, every year, about 200,000 students from low-
income backgrounds graduate from high school prepared for college but 
don't go.\1\
    2. The second thing I learned was that the high schools in our 
neighborhood didn't want any more programs (that would come, and 
disappear). The high schools wanted to build their own capacity to get 
their students to college.
    Based on these two ideas, we started College Summit to help low-
income communities raise their college-going rates by helping high 
schools build college culture.
    Why are efforts like this important for our nation?
    <bullet> Every student who is first in their family to graduate 
from college basically ends poverty in their family line forever
    <bullet> They'll earn over an additional $2 Million over the course 
of their careers; \2\ and
    <bullet> Their children will be almost twice as likely to enroll 
themselves.\3\
    <bullet> If we were able to correct the systems so that the 200,000 
students went to college each year, those students would contribute an 
additional $80 Billion in federal tax revenue annually.\4\ Programs 
like GEAR UP, TRIO and quality state and local efforts provide a great 
return on the taxpayer's investment.
    Today, College Summit works in 10 different states, with high 
schools serving 60,000 students. For example, we work with a majority 
of all high school seniors in Oakland, St. Louis, Denver, and, thanks 
to the support of the Bill and Melinda Gates Foundation, we will soon 
be working throughout 100 high schools in New York City.
    Our partner superintendents, e.g., Kim Statham in Oakland and Ron 
Duerring in Kanawha County, WV, tell us that they value four things 
about our model:
    1. We are capacity builders. We teach the districts ``to fish'' and 
to do this work themselves.
    2. We work district-wide, with tools that help leaders manage work 
across schools.
    3. Our results are measurable. Our schools have been significantly 
increasing their college-going rates school-wide over baseline, based 
on externally verified data.
    a. We have received the highest award from the National Association 
for College Admission Counseling. For four years in a row, Fast Company 
Magazine has selected College Summit as one of the top nonprofit 
organizations ``Changing the World.'' The Skoll Foundation, The Lumina 
Foundation for Education, and Venture Philanthropy Partners have 
recognized College Summit with major grants. We have been awarded two 
competitive grants from the Department of Education's FIPSE program, 
and have appreciated the support of Congressman Clyburn and Congressman 
Regula for our work.
    4. And we provide significant financial support. While school 
districts pay for our tools, we bring significant private matching 
dollars to support our communities. Major supporters, including Capital 
One, Samberg Family Foundation, Jenesis Group, Charles Harris III and 
ECA Foundation have enabled us to contribute over $30 Million to date.
    What do we do?:
    <bullet> We provide a course for all seniors in postsecondary 
planning.
    <bullet> When all students have a plan for what they will do after 
high school, they are more likely to finish high school successfully.
    <bullet> We deliver professional development for teachers, and 
guidance counselors
    <bullet> Through 3-day Educator's Institutes, we train school staff 
to deliver the course and raise expectations for what their students 
can accomplish.
    <bullet> Through a 4-day residential workshop held on a college 
campus, we train influential students to foster college-going culture
    <bullet> Data just released by the Gates Foundation found that low-
income students are four times more likely to go to college when a 
majority of their peers plan to go to college.\5\
    <bullet> These student influencers start senior year with a 
complete college application, including financial aid, completed, ready 
to support classmates and younger students.
    <bullet> We help school leaders use data to manage and evaluate 
progress
    <bullet> With support from Deloitte, we help the schools use real-
time tracking of student progress in the classroom; and
    <bullet> Review monthly and annual outcomes reports so that the 
school leaders can spot innovations and spread them.
    I would like to share three college access recommendations from our 
partners around the country.
    1. Help give high schools real time metrics on their college-going 
rates.
    John Deasy, the superintendent in Prince George's County Maryland 
says, ``Wouldn't it be great if every year every Superintendent and 
principal got real-time feedback telling us our college-going rate so 
we could spot what works and spread it.'' The good news is that this 
can be done without student-level tracking.
    2. Simplify the FASA process.
    Brian Kruger, a teacher at Roosevelt High School in St. Louis, MO, 
tells us that the FAFSA leaves his students ``confused and 
discouraged.'' Efforts to simplify the FAFSA process would make a big 
difference for our students, and we applaud the efforts of Mr. McKeon 
and Mr. Miller to achieve this.
    3. Engage the private sector to work with the schools.
    Tim and Bernie Marquez contributed $50MM towards a $200MM endowment 
to create the Denver Scholarship Foundation providing need-based 
scholarships for every graduate of the Denver Public Schools, the 
largest city-wide scholarship program in the nation. Importantly, he 
has worked closely with Denver superintendent Michael Bennet who 
brought on College Summit to help maximize this public-private 
partnership and drive the academic goals of the district. Private and 
nonprofit support; federal and local government: every sector has a 
role to play.
    The need for higher education is so pressing, and the reward for 
fully tapping the promise of our diverse communities is so great, that 
we need to support local efforts and national programs like GEAR UP and 
TRIO to enhance opportunities for America's young people in ways that 
produce measurable results for our young people and their families, and 
for America at large.
    Again, thank you Chairman Hinojosa and Congressman Keller for the 
opportunity to discuss the importance of expanding access to higher 
education.
                                endnotes
    \1\ Empty Promises: The Myth of College Access in America: A Report 
of the Advisory Committee on Student Financial Assistance, Washington, 
DC, 2002.
    \2\ U.S. Census Bureau, Census 2000, Earnings for full-time, year-
round workers by educational attainment for work life of approximately 
40 years.
    \3\ U.S. Department of Education, National Center for Education 
Statistics, Students Whose Parents Did Not Go to College: Postsecondary 
Access, Persistence, and Attainment, NCES 2001-126, by Susan Choy. 
Washington, DC: 2001.
    \4\ Advisory Committee on Student Financial Assistance, Access 
Denied: Restoring The Nation's Commitment To Equal Educational 
Opportunity, U.S. Department of Education, February 2001.
    \5\ Susan P. Choy, ``Access & Persistence: Findings from 10 Years 
of Longitudinal Research on Students,'' American Council on Education, 
2002.
                                 ______
                                 
    Chairman Hinojosa. I want to thank each and every one of 
you.
    And now I would like to let you know that we are going to 
start the questioning of the witnesses.
    I now recognize myself for 5 minutes.
    Dr. Martha Cantu, you mentioned in your testimony that 
counseling was provided to 7,430 students. How extensive was 
the counseling? And can you give an example of how these 
records informed the curriculum and instruction in the schools?
    Ms. Cantu. Absolutely. Our counselors work with our 
students to inform them about rigorous coursework, A.P. 
curriculum and how important it is that they enroll in those 
classes. They also work with them on high school graduation 
plans. They also inform them about concurrent enrollment, which 
is something that is very important as well.
    One example that I can give you is, for example, the pre-
pharmacy program requires certain math and science courses in 
high school in order for these students to qualify for those 
programs in college. So our GEAR UP coordinators are working 
with these students one-on-one, ensuring that they are taking 
these classes that they need in high school, so that they have 
the proper curriculum to succeed in college.
    Chairman Hinojosa. I was very pleased to see that you 
included the effort that is being made on parental 
involvement----
    Ms. Cantu. Absolutely.
    Chairman Hinojosa [continuing]. And that adds to the 
success of your program.
    What about the work that your program is doing with leading 
students to the STEM careers that you addressed?
    Ms. Cantu. Right. We work also, of course, with students, 
we work with teachers, and we work with administrators and 
parents about the importance of STEM careers and the need that 
there is. And so, we counsel them on the importance of the 
courses that they need to take in order to participate or to 
qualify for those courses once they enter college.
    Chairman Hinojosa. Dr. Maria Martinez, you indicated that 
the university maintains documentation of all your services and 
records of student progress. Is this typical of your program, 
or is it a requirement of the Department of Education?
    And finally, how are your records compatible with 
departmental requests?
    Ms. Martinez. There are several ways that we keep a record 
of our student services.
    One is that we do follow the guidelines from the U.S. 
Department of Education in relation the submission of annual 
performance reports, which is what documents the progress of 
our programs. And it documents graduation rates, moving from 
one grade level to the next, information like that.
    We also supplement that information with the work that we 
do with the Office of Institutional Research in our own 
institution. We work with the registrar's office and the Office 
of Institutional Research to document the records of our 
college component.
    We also recently started integrating what is called 
Blooming in our records, because that will keep track of all of 
our pre-college information on the pre-college graduation rates 
and success rates of the students. We document counseling 
contact hours, for instance. We document graduation rates. We 
document when students move from one level to the next, in 
terms of grade levels, if we are talking about the middle 
school.
    So we have several ways to document the success of our 
programs. And, again, it depends whether or not we are dealing 
with the pre-college or the college component, and those two 
call for different pieces of data to be recorded.
    Chairman Hinojosa. Thank you.
    My next question is to J.B. Schramm.
    Mr. Schramm, there are many critics of high-school-to-
college support programs, but for a minimum federal investment, 
the nation receives a great return on the taxpayers' 
investment. My question to you is, do you find that program 
cost is a central issue in your efforts, or is it one of the 
many important features?
    Mr. Schramm. I am sorry, could you phrase the last sentence 
again, please?
    Chairman Hinojosa. Yes. Do you find that program cost is a 
central issue in the efforts that you all are making? Or is it 
just one of the many important features in the program?
    Mr. Schramm. What we find is that when high schools are 
seeking to engage the kind of reform that Mr. Linn talked 
about, they need to make the reward of college real, so that 
the students can see why they should stay in school, why they 
should take the tougher courses, why they should engage in the 
STEM approach.
    And so, making that real helps the high school and the 
school district align their different goals toward having all 
students graduate college-ready and ready for career.
    So when the schools are looking at the costs and the 
community members are looking at the costs, I think what they 
see is college-transition efforts that can produce measurable 
results are ways for a community to get financial benefits, 
including increased taxes paid and so forth, but it is also a 
way for the school district and the community to see better 
academic outcomes.
    So I think there is the financial incentive for a 
community, but just as importantly is the longer-range goal of 
having more academically prepared students succeeding in 
college.
    Chairman Hinojosa. Thank you.
    My time has run out, and I would like to yield time to the 
ranking member, Congressman Keller.
    Mr. Keller. Well, thank you, Mr. Chairman.
    And, Mr. Schramm, let me start with you. You mentioned this 
course that College Summit provides for seniors. Talk to me a 
little bit about how that course works. Is it a once-a-week 
thing? Is it after school, or is it during the summer? Tell me 
about that.
    Mr. Schramm. This course is provided for all the students. 
And that is an important point. The idea is that not just some 
students should be going to college. The school is saying, 
``Everybody needs to make their plan, whether they think they 
are planning on going to college or not.''
    Mr. Keller. When?
    Mr. Schramm. That is right; they need to be doing that in 
their high school. And so, some of the courses, depending on 
the school, have it for 1 hour a week in an advisory period. 
Other schools have it 5 days a week as a course. So we try and 
set it up so that the school can make a choice about how to do 
it that fits their schedule.
    Mr. Keller. So it is during the normal school day. They 
don't have to come an hour early or stay an hour late?
    Mr. Schramm. That was a lesson that we learned a few years 
ago. We originally had it very flexible, so they could do it 
before school. And what we found is, when the school made the 
commitment that having every student plan is a part of our 
structure, they started to get much better results.
    So it is in the school day. Though sometimes it is infused 
within a civics course, or sometimes it is part of an advisory 
period.
    Mr. Keller. So they still get, in many schools, credit for 
going? It counts toward their credit?
    Mr. Schramm. That is right.
    Mr. Keller. Okay. I would think you would get a better 
turnout then.
    Mr. Schramm. We could have you advising our program 
development team.
    Mr. Keller. You have been doing this College Summit 
business for about 13 years. And one of the stats you used was 
that about 200,000 students graduate high schools, are prepared 
for college, but they don't go.
    In your experience with dealing with some of these 200,000 
students, what are the reasons that you are hearing, usually, 
for why they don't go? Is it, you know, ``I would rather be a 
cosmetologist''? ``I would like to go but I don't have money''? 
``I need to work to provide for my family''?
    What are the themes that you are hearing about why some of 
these students aren't going to college?
    Mr. Schramm. What we are hearing--and they reflect some of 
the points that the chairman made at the beginning--but we are 
hearing that there is--having students aware early on that 
college is real for them. And we find that when peer 
influences, when students from their neighborhood are 
communicating to them that fact, they believe it more 
effectively than any other way.
    Also, the know-how element. There are steps in this process 
that they need guidance to go through. And when a young 
person's parents haven't been through the process, even though 
the parents are very supportive of their education, they need 
somebody to help them stay on track step by step.
    Mr. Keller. But do you see what I am getting at? On a more 
basic level, I mean, are a lot of these kids not going because 
they don't understand they can afford it? Or are they not going 
because they want to do something else, like working, for 
example?
    Mr. Schramm. What we are finding is that there are, in a 
school, some students who want to become a plumber or they want 
to go get trained for Cisco Systems. What we do find is that 
there are a disproportionate number of low-income students who 
track themselves not to college, or feel tracked not to 
college.
    Mr. Keller. Right.
    Mr. Schramm. And so, when a school really makes it possible 
for them to explore all their options, a higher percentage of 
those students opt for college than did beforehand.
    Mr. Keller. Take my area of Orlando. I know you all aren't 
in my particular area, but if you were, and I was having a 
chance to talk with thousands of young people who are prepared 
for college but ordinarily wouldn't go, one of the things I 
would probably tell them is, ``Don't go to college because you 
can't afford it. I mean, community college in Florida is $1,500 
a year, and the Pell Grant alone is $4,310, so it can happen 
for you.''
    Would your courses provide that sort of information to 
these students, to talk to them about how much a community 
college costs and what you may get in financial aid and provide 
them that sort of information?
    Mr. Schramm. That is right. When you talk about the 
financial aspect, there are real financial barriers--the cost 
of going to college--and there are perceived financial 
barriers.
    Mr. Keller. Right.
    Mr. Schramm. And a key part of the curriculum is helping 
the students break through those perceived financial barriers 
that are not real.
    Mr. Keller. And do you actually help them fill out, like, 
the financial aid forms and college applications, that sort of 
thing?
    Mr. Schramm. That is right.
    And we would strongly urge any efforts to simplify the 
FAFSA process, which we know that Mr. Miller and Mr. McKeon are 
working on. It is an unnecessarily complicated process. And if 
that could be simplified, it will be easier. And that is an 
important part of what our schools do, but efforts you can take 
to simplify that would be very appreciated.
    Mr. Keller. Well, thank you.
    And, Mr. Chairman, my time is about expired, so I will 
yield back.
    Chairman Hinojosa. For your information, we are going to 
have a second round of questioning, so feel free to save some 
of your questions.
    I would like to recognize Congressman Courtney.
    Mr. Courtney. Thank you, Mr. Chairman.
    Dr. Martinez, your testimony described, obviously, your 
experience with the whole array of TRIO programs, including 
Upward Bound. And I just wanted to ask you about the U.S. 
Department of Education's new priority, which has issued 
guidelines that seem to be sort of pushing the programs more 
toward the older students in the Upward Bound program.
    I just wondered what your thoughts or reaction to that is.
    Ms. Martinez. At the University of Connecticut, just like I 
put in my testimony, we recruit 8th-graders and start working 
with them when they are 9th-graders. So we are doing already 
what the Department of Education wants us to do.
    However, I personally believe, and also my staff is in 
agreement with this, that imposing on the Upward Bound program 
to have to recruit a certain time, it really prevents us from 
helping students that can be at any point in the high school 
career. I believe that those decisions should be left to the 
local individuals, the people that are running the programs, 
the people that are directly involved with the students. 
Because they are the people that are better equipped to 
determine who needs the program and who doesn't.
    I think that by imposing guidelines like that, it will 
limit our capacity to help as many students as we are helping 
right now.
    Mr. Courtney. I mean, is your experience that going younger 
actually is even more successful?
    Ms. Martinez. It is more effective if you think in terms of 
when you work with students in the middle school, like we do in 
Talent Search and also GEAR UP, that you have an opportunity to 
impact what it is that they are going to do in the middle 
school but also the courses that they will be taking in high 
school. It is our experience that sometimes when they are in 
high school, we work very hard with them but a lot of the 
issues, a lot of the barriers could have been avoided if we 
worked with them before they got into high school.
    So the sooner, the better. But the point here is that any 
help is better than no help. So if you get a student when they 
are in 10th grade, 11th grade, or even when they are in the 
12th grade and they are having difficulties with the FAFSA 
process, for instance, it is better than nothing.
    Mr. Courtney. And in your testimony, I think you sort of 
answered this question, but just to confirm it, you indicated 
that your program is really just scratching the surface in 
terms of the number of student that potentially could benefit 
from it.
    And I guess the question I would ask is just, if, 
hypothetically, the program were to be doubled, in terms of the 
number of participants, would there be students out there that 
you could help if that capacity was increased?
    Ms. Martinez. Many students out there. As a matter of fact, 
with our program--I do know about many of our programs in 
Connecticut because we talk to our colleagues too--our programs 
have, many times, waiting lists.
    In the Upward Bound program, which is a smaller program, 
every single year since I have been there--and I have been 
there for 20 years--we always have a waiting list of students 
that we cannot service.
    It is the same issue with the SSS program, with the Student 
Support Services program. A lot of students wants to come to 
the University of Connecticut. We can take a certain number, 
the numbers that we are funded for. We can't take any more 
students, and we have to turn those students away.
    With the Upward Bound program, it is more noticeable, 
because those are students that we interview families, we 
interview students, we go through a very long selection 
process, but at the end we only have a certain number of spaces 
available. And whoever doesn't make it, with those numbers, we 
have to turn them away.
    Mr. Courtney. Thank you, Mr. Chairman. I yield back.
    Chairman Hinojosa. Thank you.
    Now I would like to recognize the gentlelady from 
California, Susan Davis.
    Mrs. Davis of California. Thank you, Mr. Chairman.
    And I certainly appreciate all of you being here.
    You focused partly in these programs at reaching students 
at a younger age, at least in middle school. And I know that we 
know from all the research that kids pretty much make the 
decisions that they are going to make about their future by 9th 
grade, that that is a time that many students are deciding one 
way or the other. And perhaps you can contest that point of 
view, but I think that it is not that they can't make them 
later but a lot of students do make them earlier.
    So I was interested in the key elements at that age in the 
programs that you are working on, whether there should be 
greater emphasis on that, whether, you know, if we had to make 
decisions about resources, just like people tell us--we have 
been looking at No Child Left Behind--``Put some of them in 
early childhood education,'' where do you think that would be 
appropriate?
    And of the elements that we talk about, whether it is peer 
support, parent involvement, of the elements--and we know they 
are all important--but is there any one of those that is of 
greater importance that we should put a lot more of our energy 
in? I would be curious to hear your views about that.
    And I also wonder if you are familiar with the AVID 
program, Advancement via Individual Determination. And where do 
you see that program fitting into some of the work that you do? 
Because I think what is important is that we are working in 
students in a tutoring fashion over the course of 3 or 4 years, 
in many cases, and how helpful that might be.
    Ms. Cantu. Do you want me to speak to the AVID program?
    Mrs. Davis of California. Yes. Where is the emphasis early 
on? I mean, again, if resources are limited--and we wish they 
weren't in this area--where is the focus?
    Ms. Cantu. Currently we have grown from having AVID in 
three schools; we are now in 34 schools. It is a very--we have 
partnered with AVID, and it is very powerful when both programs 
work together. We have it in the middle school, and we have it 
at--we have it at most of our middle schools and most of our 
high schools, as well. And we are seeing great results from 
that.
    Our students that are involved in AVID also have the 
benefit of GEAR UP. But, as you know, AVID is a much smaller 
program, so we are not able to serve as many numbers.
    But what we strive to do is to implement the strategies and 
techniques from AVID into the entire school, so that all 
students at that campus would benefit from those different 
strategies and techniques that are so successful through AVID. 
And that is what we have found through GEAR UP, with AVID.
    Your other question was on resources and where we should--
--
    Mrs. Davis of California. Well, of the elements that are 
important in some of these programs--and we haven't discussed 
parent involvement too much--but the peer support, time 
management--I guess I am going back to AVID a little bit 
there--but is there one area that, without that piece, we 
really could not be successful at this? And what is it, 
particularly? Where should the emphasis be?
    Ms. Cantu. I have to say that since we have been so 
successful with parental involvement, we see that so many of 
our students are being much more successful in school. We do a 
lot of training with parents, and as we get them involved we 
have seen that their children are succeeding in school, both 
with Grant 1 and now that we have Grant 2. So we do put a lot 
of emphasis in parental involvement.
    And, as I mentioned, we have a family liaison in each of 
our middle schools who works with the parents directly an 
provides that kind of, I guess, support that the parents need. 
There are monthly parent meetings. There are also one-on-one 
kind of meetings with parents. We conduct home visits. We do 
townhall meetings.
    We do whatever it takes to inform the parents. We find 
that, when the parents are informed what kind of coursework 
their child should be taking, of course that child is going to 
be much more apt to be enrolled in those courses. And there are 
a lot of misconceptions out there that parents have that we 
have to clarify.
    Mrs. Davis of California. Thank you.
    Anybody else want to chime in quickly?
    Ms. Martinez. I have to agree that the parent involvement 
component is extremely important.
    I also feel that the exposure of the students of the 
participants to a college world is also important. A lot of our 
students are not familiar with the college process. Many of 
them have never even been on a college campus. And I believe 
that if they are exposed and they know what to expect and they 
know that it is possible, that it is a reality, that they will 
be more open to the college application process, to everything 
that comes along with that.
    And the parents have to be involved, because you need to 
have everybody on the same page.
    So I think parent involvement, exposure to college, and 
also the advising regarding the courses that they need to take. 
Because it is very, very important that, once they get to the 
point that they can apply to college, that they are ready, that 
they have all of the courses that they need to apply to 
college.
    Because it is very difficult to advise the students once 
they are all done and they can't do the coursework, they can't 
go to the schools that they want to go. And you have to advise 
them differently because they don't have what they need to 
have.
    Chairman Hinojosa. Thank you.
    I now would like to recognize the gentleman from the state 
of Virginia, Congressman Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    Ms. Martinez, do you have an Upward Bound program at your 
college?
    Ms. Martinez. Yes.
    Mr. Scott. Are some Upward Bound programs residential and 
others just during the day?
    Ms. Martinez. It is a summer residential program where 
students stay on campus for 6 weeks.
    Mr. Scott. Do all the programs have the residential 
component?
    Ms. Martinez. All of the Upward Bound programs?
    Mr. Scott. Right.
    Ms. Martinez. My understanding is that they do. My program 
has had a residential component since 1967. It has always been 
like that.
    Mr. Scott. And after the summer program, what do they do 
during the rest of the year?
    Ms. Martinez. We have an academic year component that goes 
along with the summer component. What happens during the year 
is that we hold team meetings in all of the cities that our 
presence is in. And that includes meetings with the advisers 
and the group of students, and it also includes individual 
meetings one-on-one. It also has a parent component, which 
includes an orientation.
    And we also have a series of academic days which happen 
throughout the year. And what we do during the academic days is 
that we bring the students together, on a Saturday usually, 
with the parents, and they participate in a series of workshops 
and programs that are going to prepare them to get ready for 
college.
    So that happens throughout the year between September and 
May. And then at the end of June, beginning of July, they start 
their 6-week summer program.
    Mr. Scott. And did you indicate how many of your students 
actually go to college?
    Ms. Martinez. Upward Bound has a placement rate between 97 
and 98 percent, college placement. Out of that, 85 percent of 
them graduate from college.
    Mr. Scott. And your population would be considered an at-
risk population, where you would not expect a high college 
attendance rate?
    Ms. Martinez. They are considered at-risk.
    Mr. Scott. But 97 and 98 percent of your students actually 
go to college?
    Ms. Martinez. They do. They are placed in college.
    Mr. Scott. Now, there is an income eligibility. You have to 
be low-income to get into Upward Bound, is that right?
    Ms. Martinez. Correct.
    Mr. Scott. How do they afford to go to college?
    Ms. Martinez. We work with them throughout the year, 
identifying scholarships. Because they are low-income, they 
qualify for the Pell Grant and for other grants. We work with 
them regularly during the year, identifying primarily 
scholarships and grants.
    Because one of the issues that we deal with, that we try 
very hard not to get our students in a bind of having loans. So 
we try everything other than the loans first. And we are pretty 
successful at doing that. Especially because our students are 
low-income, they qualify for a lot of gift money.
    Mr. Scott. And when they get to school, I mean, how much of 
the tuition, room and board can they raise without having to go 
to loans?
    Ms. Martinez. It depends on the institution that they go 
to. For instance, we have students that we recommend a 
community college for them. We have students that we recommend 
the Connecticut State University, which is a 4-year 
institution; the flagship university, which is the university I 
represent, the University of Connecticut. So it depends on 
which institution they choose to go.
    If they choose to go to the community college, obviously 
they are not going to have to pay a lot of money.
    If they choose to go to the flagship university, what we do 
is that we work very closely with the Office of Financial Aid, 
in terms of preparing their financial aid package so they don't 
end up paying for loans. We try very, very hard to get our 
students at least a first, second and third year without any 
loans. And we are pretty successful at doing that.
    Mr. Scott. And do you follow up with your students 
throughout college?
    Ms. Martinez. Yes, we do. As a matter of fact, we are 
working on our alumni now.
    Mr. Scott. Okay. Does the work-study program--is that very 
helpful?
    Ms. Martinez. It is very helpful.
    Mr. Scott. And how much money can they make, and how many 
hours can they work on work-study?
    Ms. Martinez. It depends which one you are referring to. We 
do have a work-study component, which is during the summer, 
residential component. And we submitted an application to the 
Department of Education, and we were awarded to put our 
students in a work-study program during the summer, 6 weeks. 
They are placed in different departments and different units.
    Now, they do work probably 4 or 5 or 6 hours, no more than 
that, because we don't want that to impact on the college 
component that we do during the summer.
    If you are referring to the academic year, we do not 
encourage our students to work more than 10 hours a week. We 
know that low-income students tend to work too much during the 
academic year, and we know that is an issue.
    Mr. Scott. Now, I have heard that if it gets above 15 hours 
a week, it has a significant effect on academics. Is that 
what----
    Ms. Martinez. It does. It does. And we discourage our 
students from doing that.
    Mr. Scott. You indicated you have a waiting list for Upward 
Bound?
    Ms. Martinez. Yes, we do.
    Mr. Scott. And do you do any recruiting, or do you just 
have so many applicants you don't even have to recruit?
    Ms. Martinez. No, we recruit every year. We recruit every 
year. We have an application process that every student that 
wants to join the Upward Bound program has to comply with the 
application process. There is an interview included. We do it 
every year during the spring.
    But every year we end up with a waiting list, which is 
frustrating, because there are many students out there that we 
know would benefit from the program but we are not able to 
bring them in.
    Chairman Hinojosa. Thank you.
    At this time, I would like to acknowledge and recognize the 
gentleman from New York, Congressman Bishop.
    Mr. Bishop. Thank you, Mr. Chairman. Thank you for holding 
this hearing.
    And thank you to the panel. The testimony has been very 
enlightening. Thank you very much.
    Let me start with this. One of the findings of Secretary 
Spellings' Commission on Higher Education is that there is 
insufficient articulation between what high schools teach and 
what colleges expect, and that that is an impediment to student 
success.
    And, Mr. Linn, do you have thoughts, A, on that subject? 
And B, if you agree with that, do you see any role for the 
federal government in trying to encourage high school curricula 
that matches up more with what college expectations are?
    Mr. Linn. Thank you for the question, Congressman.
    What we have seen across the country is really through the 
P-16 councils that I talked about, governors are bringing both 
the K-12 community and the post-secondary community and key 
institutions in those states to not only identify the number of 
math courses you need to take in order to get into the 
University of Connecticut but the conversations are actually 
digging much deeper into what those courses need to look like.
    We know in many states across the country that Algebra I 
content doesn't necessarily match the course title. And so, 
those P-16 councils have really been used to forge stronger 
working relationships to dig deeper so that we know the content 
matches what the professor of chemistry expects a science major 
to know when he gets into that university.
    Mr. Bishop. Okay, thank you.
    Mr. Schramm, did you want to comment on that?
    Mr. Schramm. When we are working in communities, we pull 
together the superintendent and the principals as well as the 
deans of admission from the surrounding colleges. And it is 
seeing how the superintendent responds when the dean of 
admissions is saying, ``We have been admitting your students, 
but we are finding that they are way behind, in terms of their 
math requirements.'' So allowing for those conversations to 
take place we are seeing is beneficial for the superintendents.
    Mr. Bishop. Okay, thank you.
    The other issue I want to raise is, we deal here a lot with 
the concern of rapidly escalating costs of higher education. 
And one of the cost drivers in education, obviously, is 
personnel. And usually 60 to 70 percent of higher education 
costs are salary and fringe benefits for personnel.
    And one of the changes in higher education over the last 30 
years, I would say, has been the increased provision of student 
support services--counseling, remediation and so on.
    Dr. Martinez, you cite a statistic, 85 percent of your 
students graduated in 4 years or 6 years?
    Ms. Martinez. The high school component, the Upward Bound 
program.
    Mr. Bishop. Yes.
    Ms. Martinez. Yes.
    Mr. Bishop. But 85 percent of that cohort----
    Ms. Martinez. Correct.
    Mr. Bishop [continuing]. Graduates in 5 or 6 years.
    Ms. Martinez. Correct.
    Mr. Bishop. And to what extent would you credit the student 
support services aspect of the program, in terms of helping 
students persist through to graduation?
    Ms. Martinez. Well, I think that the Upward Bound students, 
the fact that they spend 3 years in the program--because these 
are the same students that we recruit when they are in 9th 
grade--they spend three summers with us, in residence, taking 
rigorous courses, such as English, math, science, study skills, 
SAT prep, all of the courses that they are going to need to 
become stronger once they apply to college.
    They also come in contact with a lot of people from the 
college scene, a lot of professors. They get an opportunity to 
be in classes, to participate in lecture form of classrooms. 
And we believe that preparing the students like that, when they 
get to college, they know what to expect.
    Mr. Bishop. Okay. I guess what I am searching for is, often 
schools are criticized for providing these services because 
they drive up the price. But I guess what--my bias has always 
been that what we ought to be doing is encouraging success. And 
the provision of these kinds of services to either at-risk 
populations or not-at-risk populations helps students graduate 
in larger numbers, which is really what we ought to be focusing 
on, right?
    Ms. Martinez. Correct. Correct.
    Mr. Bishop. And so, do you see the kinds of services that 
TRIO programs provide, do you see them as replicable for, you 
know, student populations that wouldn't be considered at-risk?
    Ms. Martinez. It is interesting that you say that, because 
we are experiencing exactly that in our institution.
    What we are experiencing is that, since 1967, the SSS and 
the Upward Bound have been on campus, we have been doing all of 
the things that we feel work to get the students prepared to go 
to college, to be retained and to graduate.
    And recently what we are seeing is that the institution is 
implementing some of the programs that we have been doing for 
years for the general population, because they work, because 
the students graduate.
    Mr. Bishop. Okay. Thank you very much.
    Chairman Hinojosa. Thank you.
    At this time, I would like to recognize a gentleman who is 
highly respected in our Education and Science Committee, the 
congressman from Michigan, Congressman Ehlers.
    Mr. Ehlers. Thank you, Mr. Chairman.
    I apologize for being late. I was tied up on the floor. Not 
literally. I was on the House floor. [Laughter.]
    At any rate, we had some exciting times down there.
    I am sorry, my questions may have been asked earlier. They 
may not be pertinent.
    First of all, I believe, Dr. Martinez, you are involved 
with Upward Bound. Is that correct?
    Ms. Martinez. Yes, I am.
    Mr. Ehlers. I have a college in my district who was active 
in Upward Bound for quite a few years, and it was a very 
effective program. And at one point, they simply dropped it and 
did their own program, which they thought accomplished the 
goals better than Upward Bound did.
    Have you encountered that feeling, that Upward Bound is 
either too high-bound, let's say, or is not the most effective 
way of doing it? Or are you quite happy with Upward Bound as it 
is currently structured?
    Ms. Martinez. Well, we have had the Upward Bound program 
since 1967, as I was saying before. And the state of 
Connecticut, in 1997, came up with their own program, modeled 
after Upward Bound. So right now we are running two concurrent 
programs in Connecticut under the Upward Bound model. So we 
have the Upward Bound program, which is federally funded, and 
we have what we call the Conn-CAP program, which is state-of-
Connecticut-funded.
    They are both the same exact program. Obviously the Conn-
CAP program came later, in 1997. They felt that the Upward 
Bound program was working very well and they wanted to 
replicate the model.
    So, for us, it has been a little bit of a different story. 
The Upward Bound program in Connecticut has worked very well. 
And at the University of Connecticut, we have been, I have to 
say, very successful at placing our students in college, and 
not only placing them but see them through graduation.
    And one of the statistics that I quoted before was the 85 
percent student graduation rate that we have for Upward Bound. 
But every year, we fluctuate between 97 and 98 percent 
placement rate in college. So, obviously, our program has been 
extremely successful.
    Mr. Ehlers. All right. So you started the Connecticut 
program simply because you wanted more money and more program--
--
    Ms. Martinez. We wanted to help more students. And the 
Upward Bound program that was have right now, it is small. And 
what I was mentioning before is that every year we do have a 
waiting list. So we were hoping to be able to help more 
students with funding coming from the state of Connecticut.
    Connecticut is a very interesting state. We have some of 
the richest cities, but we also have some of the poorest 
cities. And that is where our Upward Bound program is.
    So right now, we are servicing more students in Hartford, 
thanks to the department of education in Connecticut. We were 
not able to do that with the federal funds that we get.
    Mr. Ehlers. Yes. I appreciate that. And I agree with you. I 
think Upward Bound is an extremely good program, and I was very 
delighted that the institution in my district did it for a 
number of years. I am delighted that they are carrying it on 
now with private money instead of Upward Bound money, for 
various reasons which we don't have to get into here. But I 
just wondered what your comparison was.
    Ms. Martinez. Thank you for the question.
    Mr. Ehlers. Then, Mr. Linn, your testimony mentioned the 
need for innovation. And I think you mentioned the WIRED grant 
as well.
    My district received a WIRED grant, which, for those who 
aren't familiar with it, it is Workforce Integration Regional 
Economic Development, which sounds like a title that was 
invented to fit the acronym, which we often do around here. 
[Laughter.]
    The project is relatively new. It is still ongoing.
    I wondered if you could comment on some of the ways WIRED 
grantees are aligning their innovative practices with college 
access and K-12 education. Do you have any comments on that?
    Mr. Linn. Well, I think the best way to respond to your 
question is to provide an example, where we have a state in the 
Midwest who has forged a partnership with the Workforce 
Investment Agency, the community college system, the K-12 
system as well, and the private sector. And they are coming 
together to identify what are the key economic drivers in a 
particular state.
    So, for example, they have a number of companies that focus 
on medical devices, but yet they have a workforce that doesn't 
want to go into those occupations. What they have done is to 
work in partnership to encourage those students to take more 
challenging courses in those sciences and math courses, get 
them hooked into the occupations and stay in that particular 
area.
    This is a state where few students will leave the state or 
let alone that region in which they currently live. So they can 
get interested in that career early on, earn a decent wage once 
they get out of college. And some of those occupations are not 
just bachelor degree occupations but they are occupations in 
which you just need an associate's degree.
    So that is a way in which I think the education and 
workforce and private sector can all work together and, in some 
cases, through the governors' P-16 councils to figure out: How 
can we do a better job of coordinating the monies that we 
currently have?
    Mr. Ehlers. Thank you. I am very pleased with the WIRED 
program. I think that is giving us some real opportunities in 
Michigan. And I think other states are experiencing the same.
    But you mentioned a very key point, and that is individuals 
have to be willing to aim for a different vocation than they 
had intended for.
    A major problem we have in Michigan--and I can assure you 
it is a very hot political question, because our economy has 
gone south with the decline of the auto industry. And the 
people who are angriest about it are not necessarily those who 
have lost their jobs but parents of children who cannot get 
jobs in Michigan so they move out of state to get the job. And 
the parents are extremely angry that their children had to move 
because they couldn't get a job in Michigan. They, of course, 
want their kids to live near them.
    And this is a major problem we have to address. WIRED is 
part of it. We need a lot more help than just that. But I was 
pleased with your comments about it and your explanation of it.
    Mr. Chairman, I have no further questions. Thank you.
    Chairman Hinojosa. We thank you.
    I would like to recognize the gentleman from Kentucky, 
Congressman Yarmuth.
    Mr. Yarmuth. Thank you, Mr. Chairman.
    I thank you all for your testimony. I enjoyed it very much 
and appreciate what you are doing.
    I also apologize for having to step out, so if I ask a 
question that has already been asked, just tell me that you 
have already answered that, and I will check it out.
    But, Mr. Linn, those of who have been interested in this 
area, we read a lot about the need for increased science and 
math education. And I admit that I am scientifically deficient 
myself, having been a journalist and not knowing anything about 
those things.
    But I can't help but wonder whether this extreme focus on 
science and math education may not inure to the detriment of 
liberal arts education, specifically in reading as well. I 
think the numbers are something like 71 percent of 8th-graders 
and 65 percent of 12th-graders read below grade level and that 
only 34 percent of graduates are literate enough to do college 
work.
    Should we be worried that this focus on science and math 
education may end up kind of de-emphasizing the importance of 
reading and history and other liberal arts instruction?
    Mr. Linn. Congressman, I will act like my wife is sitting 
behind me. She is a middle school history teacher.
    I would be remiss to suggest that the focus in our 
educational system should be exclusively focused around 
science, technology, engineering and mathematics.
    If you look at some of the work that NGA has been doing 
over the past couple of years, particularly in 10 of our states 
that are focused on high school redesign--and Kentucky has been 
intimately involved in our work, as has the state of Michigan--
we are working with a number of governors in those states who 
are trying to create many different models for students who go 
through our high school system.
    So that there are students, for example, who want to go to 
the North Carolina School for Math and Science, and Governor 
Easley has created a couple of those schools. But we also have 
states that have created new-tech or high-tech highs, for 
students that are particularly interested in technology. And, 
yes, there are students who are entering specific schools 
designed around the arts because that is where their strengths 
are and their interests.
    But we should, as we have seen across the state, really 
focus on ensuring that all students--and we have seen this in 
Michigan, actually, last year--who raise the graduation 
requirements for all students, so that they have to take a 
certain number of math courses, English courses, science and 
social studies.
    So governors aren't specifically increasing the graduation 
requirements for math and science only. It is really across the 
curriculum, so that they are equipped to succeed in whatever 
path they choose with the supports of some of the programs that 
we have heard about here this afternoon.
    Mr. Yarmuth. There is one other thing I want to ask, and 
anyone can respond. And I am not sure exactly how it fits 
specifically in this discussion.
    But in some of the conversations I have had recently, 
groups that are very concerned about funding for scientific 
research, what they are saying is that we are trying to push 
young people into science, and yet on the other end we are 
reducing the opportunities that they have for employment, 
because we are cutting back funding of NIH and some other areas 
like that.
    So as we are pushing them to say, ``You ought to go into 
science,'' the other end we are, at least maybe superficially, 
but visibly, saying to them, ``But there are not that many 
opportunities for you here.''
    Is that a concern that you see, that we need to make sure 
that what we do from the federal government level, in terms of 
creating the opportunities so that when we educate these young 
people that they do have fields that are attractive to them?
    Mr. Linn. I was recently in Arizona, where I think that is 
a very good example of where the governor, in partnership with 
in this case Arizona State University, have really identified 
some of the emerging careers in that state.
    And just to give you the context, you see a significant 
number of companies in that state in the optics field. And what 
they are trying to do is partner with, in this case, again, 
Arizona State University to identify: What are the range of 
occupations that students who are interested in going into some 
of those jobs, what are some of the majors they might consider 
when they go into college?
    But we have got to touch those students well before they 
get into 9th grade, because some of those students get turned 
off by the time they get into 9th grade. And that is where I 
think some of the work that governors are beginning to do, 
stretching down to the middle school--and to help teachers in 
the middle school and high school understand the new ways to 
deliver some of the content that 9th-and 10th-graders aren't 
particularly attracted to.
    My daughter, for example, isn't particularly fond of 
physics. And I think, in large part, a lot of students aren't, 
and that is because we don't connect it to what they can do 
with that content in the real world.
    Chairman Hinojosa. The gentleman's time has expired.
    I want to ask a question of Mr. Linn.
    The National Governors Association is supporting advanced 
placement/International Baccalaureate programs for students, 
and this has great merit. How are the governors assuring that 
low-income, at-risk students have access to these programs?
    And I ask this question because, most recently, in the last 
5 years, I have seen with great interest a business periodical 
Newsweek, which has listed our top 100 high schools in the 
country. And they actually find 1,000, but they feature the top 
100.
    So if you could answer my question, I will ask you one 
final one.
    Mr. Linn. Over the past 2 years, NGA has been working with 
six states in particular, and we have asked each of those six 
states--like the state of Kentucky--to partner with a consortia 
of rural districts and an urban district in that state. And the 
purpose of this project has been to forge a local-state 
partnership to increase access to advanced placement courses 
for low-income students.
    Using the Kentucky example, I have to say that, given some 
of the recent data we have collected from the work we have been 
doing, there are a significant number of students in those 
districts, Louisville being one of them, that has increased the 
access of low-income students, particularly African-Americans, 
to A.P. courses.
    The real test will be the end of this year, when we find 
out not only how many students have accessed those courses but 
how well have they done on the exams. That is the true measure 
of whether or not students are succeeding in more rigorous 
courses.
    You will see it is our intent to continue to focus on 
helping governors, as not just in Kentucky but many other 
states, forge partnerships so that we are not just talking at 
the state level about the goal of increasing access but we are 
actually doing it. And I think that that is something that we 
are committed to as an organization.
    And the data we have is quite compelling, not just in 
Kentucky but also in Georgia, Alabama, and I believe in 
Wisconsin is another state.
    Chairman Hinojosa. Well, I asked that question because in 
the state of Texas, we have had as many as five high schools 
listed in that top 100 high schools in the country, and so of 
course I am very happy and proud to say that two of them come 
from my congressional district.
    Mr. Ehlers, I believe you have another question.
    Mr. Ehlers. I thank you. I congratulate you on that. As 
usual, Texas is always the best in everything. [Laughter.]
    Chairman Hinojosa. We brag about it.
    Mr. Ehlers. I know you do, endlessly. [Laughter.]
    Thank you very much.
    Just a few wrap-ups, in a sense a follow-up on Mr. 
Yarmuth's question, and not so much a question as a comment 
that I wish to make, but you can feel free to discuss it or 
comment on it, on the question raised about teaching math and 
science versus teaching reading.
    There should be no ``versus'' in there. That is the 
important point.
    And I am a very strong advocate for teaching math and 
science. People think it is because I am a scientist, but that 
is only part of it. The major part is they need math and 
science in order to get a meaningful job at some point in the 
future.
    But also it is directly related to reading. And most people 
don't realize that. I have had a number of individuals, 
including a former chairman some years back of this committee, 
say, ``First, reading. When we get that down-pat, then we will 
start math and science.''
    The point is, the research shows that studying math and 
science improves the ability to read. They go together. It is a 
simple fact of doing the sorts of things you do in early math, 
the sorting, classification skills, things of that sort, are 
very useful to help children develop reading skills.
    And so, the point is simply the curriculum has to be 
designed for the whole person and how do you teach most 
effectively for the whole person.
    And that is why I have fought consistently for including 
science and math in the early curriculum. I would like to see 
it in pre-school, because I have seen the results of what it 
does in pre-school, but particularly in elementary school. If 
they don't get started in math and science there, they are 
behind the eight ball in high school, tend not to take it, and 
then when they get to college they are automatically unable to 
take a whole host of courses unless they want to stay 5 years, 
even 6 years, in the university.
    So I didn't mean to give a sermon here, but I think it is 
important to get that on the record and get that word out: that 
we have to consider the whole child and all the aspects of 
learning simultaneously. And not just math and science and 
reading, but there are a lot of other things as well.
    The other comment I wanted to make is about your daughter. 
I would be happy to talk to her about physics. [Laughter.]
    Mr. Linn. Could you tutor her? [Laughter.]
    Mr. Ehlers. I might, if I can keep up with her.
    But, again, there is a lot of misunderstanding about the 
role of science. And you were right-on when you said that--
physics is the one subject that relates mathematics to the real 
world. So you are taking the abstractions of mathematics and 
relating it to the motion of objects, the study of movement, 
energy and so forth. And so, it is a very concrete thing, even 
though a lot of kids think it is theoretical.
    And I have had endless students say, ``I hate word 
problems,'' and I say, ``That is because you were never taught 
how to approach them.'' Everyone tries to approach it as a math 
problem. It is not a math problem. It is relating math to the 
motion of objects in the real world.
    So I would be happy to talk to your daughter. Maybe I can 
give her an inspirational talk and tell her that physics--I 
have always told my students, ``Once you know physics, you can 
do anything.'' And little did I know, when I was teaching and I 
said that, that I would become a congressman and become living 
proof of it, that physicists can even be legislators.
    And, with that, I will yield back, Mr. Chairman. Thank you 
very much.
    Chairman Hinojosa. Thank you very much for those closing 
remarks.
    Once again, I would like to thank the witnesses and the 
members of the subcommittee for a very informative session.
    As previously ordered, members will have 14 days to submit 
additional materials for the hearing record. Any member who 
wishes to submit follow-up questions in writing to the 
witnesses should coordinate with majority staff within the 
requisite time.
    Without objection, this hearing is adjourned.
    [Whereupon, at 3:07 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
